<html>
<title> - #BringBackOurGirls: ADDRESSING THE THREAT OF BOKO HARAM</title>
<body><pre>[Senate Hearing 113-628]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 113-628
 
                     #BringBackOurGirls: ADDRESSING THE 
                              THREAT OF BOKO HARAM

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 15, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-293 PDF               WASHINGTON : 2015                    
_______________________________________________________________________________________     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  
    


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
BENJAMIN L. CARDIN, Maryland         JOHN McCAIN, Arizona
JEANNE SHAHEEN, New Hampshire        JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Abdullahi, Lantana, project manager, Search for Common Ground, 
  Jos, Nigeria...................................................    30
    Prepared statement...........................................    32
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Flake, Hon. Jeff, U.S. Senator from Arizona, opening statement...     3
Friend, Alice, Principal Director for African Affairs, U.S. 
  Department of Defense, Washington, DC..........................    14
    Prepared statement...........................................    16
    Responses to questions submitted for the record by the 
      following Senators:
        Christopher A. Coons.....................................    50
        Benjamin L. Cardin.......................................    51
        Bob Corker...............................................    51
        Jeff Flake...............................................    55
Gast, Hon. Earl, Assistant Administrator for African Affairs, 
  U.S. Agency for International Development, Washington, DC......    10
    Prepared statement...........................................    11
    Response to question submitted for the record to Earl Gast 
      and Robert Jackson by Senator Benjamin L. Cardin...........    42
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    48
    Responses to questions submitted for the record by Senator 
      Christopher A. Coons.......................................    50
Jackson, Hon. Robert P., Principal Deputy Assistant Secretary of 
  State for African Affairs, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7
    Responses to questions submitted for the record by the 
      following Senators:
        Christopher A. Coons.....................................    39
        Benjamin L. Cardin.......................................    40
        Robert Menendez..........................................    43
        Bob Corker...............................................    45
Menendez, Hon. Robert, U.S. Senator from New Jersey, statement...     3

                                 (iii)

  

        #BringBackOurGirls: ADDRESSING THE THREAT OF BOKO HARAM

                              ----------                              


                         THURSDAY, MAY 15, 2014

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons, Menendez, Cardin, Shaheen, Flake, 
Rubio, and Barrasso.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Good morning. I would like to call to order 
this hearing of the African Affairs Subcommittee of the Senate 
Foreign Relations Committee.
    Good morning. Exactly 1 month ago today, extremists in 
northern Nigeria abducted nearly 300 schoolgirls in an 
unconscionable act of terror. The leaders of the group 
responsible, Boko Haram, are selling the girls into marriages, 
forcibly converting them to Islam, and using them as a 
bargaining chip in negotiations with the Nigerian Government. 
It is believed the girls are today being held in a dense 
tropical forest area roughly the size of West Virginia that 
straddles a porous and ungoverned border with three countries.
    Despite being forewarned of a possible attack, reports 
indicate the local and central government did nothing to 
protect them when told an attack was imminent. Parents should 
not have to be afraid to send their children to school, no 
child should live through the horror these girls have 
experienced, and no family should have to confront these 
threats alone.
    Unfortunately, these are not the only families who have 
suffered at the hands of Boko Haram. The same day as these 
abductions, 75 more people were killed and 100 wounded in a 
bombing at a bus station in the Nigerian capital city of Abuja. 
More than 300 people were murdered during a Boko Haram attack 
in Gamboru just last week. According to Amnesty International, 
Boko Haram has killed more than 4,000 over the last 3 years, 
including 1,500 people in the last year alone.
    I want to welcome my partner in the Africa Subcommittee, 
Senator Flake, as well as Chairman Menendez, Ranking Member 
Corker, and other members, as we look at the response to these 
kidnappings and consider the grave and growing threat presented 
by Boko Haram.
    This subcommittee last met to consider conditions in 
Nigeria in 2012, when we looked at the persistent divides 
between the north and south in economic potential, governance, 
education, and social services, and the very real security 
challenges created by these differences. Nigeria is an 
important partner in the region, but Boko Haram has capitalized 
on pervasive corruption, poor governance, and growing poverty 
in the north to undermine domestic and regional stability.
    Boko Haram, whose name means ``Western Education is 
Sinful,'' targets public institutions, churches, and schools, 
and children are the frequent victims of its vicious attacks. 
As New York Times columnist Kristof wrote, just last weekend, 
``The greatest threat to extremism is not drones firing 
missiles, but girls reading books.'' The schoolgirls from 
Chibok in Nigeria demonstrated great courage, returning to 
their school to take their final exams in the face of an 
explicit terrorist threat, a group that targeted them simply 
because they sought an education.
    Boko Haram is trying to send a message, and the world, 
starting with the Nigerian Government, must respond by saying 
their crimes will not be tolerated and perpetrators held 
accountable.
    We are holding this hearing, in part, because of the 
outpouring of concern from many of my constituents and millions 
of Americans. The #BringBackOurGirls hash tag, which some 
pundits have mocked, has been mentioned more than 3 million 
times on Twitter, and those Tweets, posts on Facebook, 
Instagram, and others, were from people trying to get our 
attention and trying to make sure the United States is doing 
everything it reasonably can to help the Nigerians bring these 
abducted girls home. Those people deserve to know that we hear 
you and share your goals.
    Every day these girls are missing, it becomes less likely 
they will be returned home safely. It took too long for the 
Nigerian government to respond to these girls' abduction. It 
took too long for the Nigerian Government to accept offers of 
assistance from the United States, the United Kingdom, France, 
and China. And, once accepted, it took too long for that 
assistance to be implemented. I am glad a U.S. team is on the 
ground now, and we need to make sure not another day is wasted. 
We cannot stand by while Boko Haram viciously attacks Nigerian 
citizens, their freedom, their security, and their right to an 
education.
    So, in this hearing, we will discuss the response of the 
Nigerian Government to Boko Haram both before and after the 
abduction; we will consider what the United States is doing, 
and can do, to help in response to the abductions and in 
confronting Boko Haram; finally, we will consider the regional 
implications of this growing threat and what action can and 
should be taken by Cameroon, Chad, and Niger to ensure the 
schoolgirls are not taken across borders and to minimize the 
growing regional threat.
    With that, I would like to invite an opening statement by 
my ranking Senator Flake and then a statement by the full-
committee chairman, Senator Menendez.
    Senator Flake.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman. Thanks for calling 
this hearing.
    Appreciate the witnesses coming forward. I look forward to 
their testimony. I will not take any time here, just to say 
that I agree with the chairman's comments. We want to know what 
the U.S. Government is doing, what the Nigerians have asked 
for, whether we can help them, or not, in this regard.
    So, I look forward to the testimony, and thank you for 
calling the hearing.
    Senator Coons. Thank you, Senator. And I greatly appreciate 
your cooperation and real partnership in working on this 
subcommittee.
    To the full-committee chairman, Senator Menendez.
    Senator.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Well, thank you, Mr. Chairman.
    As I sit here in your chair, I get the Blue Hen vibrations 
coming from Delaware.
    So, I appreciate your and Senator Flake's leadership on the 
Africa Subcommittee on a wide range of topics. And today is a 
continuation of that leadership. And we are all thankful for 
the work that you do on behalf of all of us who serve on the 
committee. So, thank you for your work and your leadership.
    It is very rare, I should say, that I come to a 
subcommittee hearing. As a matter of fact, I have not done it 
in the 17 months that I have been the chairman. I remember 
Senator Lugar used to do it quite often. But, this is one that 
I clearly feel compelled to be a part of.
    We are all appalled at the plight of nearly 300 young women 
abducted in Nigeria by Boko Haram, which has been said many 
times. To me, it is amazing that the phrase ``education is 
forbidden,'' in the 21st century, is still a reality. Of 
course, it is a phrase that is counterintuitive to those of us 
who care about the future of the next generation.
    Right now, these girls are separated from their families 
and no doubt are terrified. I have seen the video released by 
Boko Haram this week, and my thoughts, as a father, are with 
the missing girls and their parents.
    Frankly, in my view, the fact that incidents like this are 
happening at all in the 21st century should be deeply troubling 
to every human being. We must reaffirm and recommit ourselves 
to the fundamental rule of law everywhere. As parents, as human 
beings, we must insist that women and girls be treated with 
dignity and allowed to live and learn in safety from extremists 
everywhere.
    Sadly, while the scale of this incident is staggering, the 
Boko Haram threat is not a new one. They have led an escalating 
campaign of atrocities against their own people for 5 years. 
They are extremists with a gangster mentality who represent no 
interest but their own, targeting young women, also young men, 
churches, and schools. I believe they do not represent Islam, 
and, in my view, their actions cannot go unanswered.
    The mothers, activists, and concerned citizens who have 
taken their outrage and grief to the streets of Abuja, London, 
and Washington, and the electronic highways of Twitter and 
Facebook, deserve credit for focusing the world's attention on 
this crisis and insisting to the Nigerian Government, ``Bring 
them home.'' Just this past Friday, I joined outraged citizens 
in my own State of New Jersey, who added their voices to the 
chorus and took up the cause on social media.
    That said, despite offers of assistance from the United 
States and other international partners, the Nigerian 
Government's response to this crisis has been tragically and 
unacceptably slow. I have called on President Jonathan to 
demonstrate the leadership his nation is demanding. My 
understanding is that our team of U.S. technical advisors is 
now on the ground, supporting existing teams, conducting aerial 
surveillance, and sharing commercial satellite imagery with 
Nigerian authorities. Beyond what is happening on the ground as 
we speak, I look forward to hearing our witnesses discuss a 
plan of action for coordinating with Nigeria over the coming 
days and weeks.
    Finally, from a 30,000-foot view, the rise of groups like 
Boko Haram do not occur in a vacuum. Nigeria has a long history 
of division along ethnic and religious lines, tensions that 
terrorists capitalize on by creating more distrust and more 
tension. But, as much as we are appalled by the actions of Boko 
Haram and their tactical effort to use societal fissures to 
create chaos and distrust, we should also be troubled by a 
record of excessive force and human rights abuses by Nigeria's 
military.
    I am pleased to see, Mr. Chairman, that you have added an 
additional witness, Miss Lantana Abdullahi, who has worked in 
Nigeria on interfaith violence prevention and community 
reconciliation issues, and has brought together civil society 
groups, government leaders, and security forces to prevent 
human rights abuses in Nigeria. And we look forward to hearing 
her testimony.
    Finally, let me close by emphasizing the importance of 
elevating the issue of women's issues globally, the question of 
sexual violence, violence against women, in general, to the 
international arena. I call on my colleagues in Congress to 
pass the International Violence Against Women's Act that 
Senator Boxer and I introduced last week. I believe the world 
is watching and the time is now.
    My thanks to you, Mr. Chairman, to Senator Flake and to our 
witnesses. I look forward to hearing their testimony.
    Senator Coons. Thank you very much, Chairman Menendez.
    And we all look forward to the testimony of our witnesses 
today.
    I would like to welcome our first panel. Ambassador Robert 
Jackson, Principal Deputy Assistant Secretary of State for 
African Affairs; Earl Gast, Assistant Administrator of Africa 
at USAID; and Ms. Alice Friend, a Principal Director for 
African Affairs at the Department of Defense--make up our first 
panel.
    And our second panel will be Lantana Abdullahi, project 
manager for Search for Common Ground, who is currently watching 
this hearing and will be joining us later via Google Hangout, 
from Jos, Nigeria. We look forward to Ms. Abdullahi's 
testimony, commend her courage, and are honored by the 
opportunity to hear a voice from northern Nigeria today.
    I want to thank our first-panel witnesses for being here 
today, and welcome your opening statements.

STATEMENT OF HON. ROBERT P. JACKSON, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY OF STATE FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Jackson. Chairman Coons, Ranking Member Flake, 
Chairman Menendez, other members of the committee, thank you 
for inviting me to update you about U.S. efforts to address the 
chilling threat that Boko Haram represents to Nigeria, one of 
our most important partners in sub-Saharan Africa. Assistant 
Secretary for African Affairs Thomas Greenfield regrets that 
her travel schedule prevented her from being here today. 
However, she will be attending the Regional Summit organized by 
French President Hollande in Paris on Saturday.
    It has now been 1 month since Boko Haram kidnapped the 200 
young women from the town of Chibok in northeastern Nigeria. At 
the time of the kidnapping, these brave young women had 
returned to their high school in order to complete examinations 
that would allow them to attend university. By seeking 
knowledge and opportunity, they represented a challenge to Boko 
Haram, since it opposes democracy and formal education. Indeed, 
Boko Haram has attempted to crush the kind of faith in the 
promise of education and prosperity that families in Chibok 
showed.
    The attack is part of a long, terrible trend. Boko Haram 
fighters have repeatedly targeted schools. In February, Boko 
Haram massacred at least 29 people when it destroyed a rural 
boarding school in Adamawa. Boko Haram has murdered police 
officers, snatched children, destroyed churches, burned 
schools, attacked mosques, driven people from their homes, 
challenged the government's authority, and kidnapped Westerners 
in both Nigeria and neighboring Cameroon.
    Since January 1, Boko Haram has killed over 1,000 people, 
making Nigeria's struggle against this group one of the 
deadliest conflicts in Africa today. In addition to terrorizing 
the capital and other cities, Boko Haram attacks villages and 
military installations. The abductions in Chibok fit into a 
larger pattern of violence. Throughout northeastern Nigeria, 
teachers and students have learned to fear the gunmen who come 
in the night to kill young men and teachers and steal away 
young women. Some of the young women from Chibok daringly 
escaped their captors, but many more remained prisoners of Boko 
Haram's leaders, Abubakar Shekau, and his brutal followers.
    We join the world, the people of Nigeria, and the parents 
of these children, in expressing our outrage of Boko Haram's 
shocking acts and its perverse ideology. This tragic kidnapping 
calls us to redouble our efforts to defeat a malicious 
terrorist organization that has troubled Nigeria for more than 
a decade. World leaders, including President Obama, have 
pledged their full support to the government and people of 
Nigeria as they seek to safely recover and assist these 
courageous young women.
    We acted swiftly to carry out the President's pledge. By 
Monday, May 12, we had deployed an 18-member interagency team 
to advise the Nigerian Government as it works to bring back the 
young women--specifically, by advising on how to safely recover 
and assist these girls, offering specialized expertise on 
military and law enforcement best practices, hostage 
negotiation, intelligence-gathering, strategic communications, 
and how to mitigate the risk of future kidnappings. USAID has 
mobilized resources to provide humanitarian assistance to those 
affected by Boko Haram violence, including through the 
provision of psychosocial and medical support and treatment. We 
are cooperating fully with our partners--the U.K., France, and 
a host of other countries--who are also dedicating significant 
interagency manpower, resources, and time to this effort.
    Mr. Chairman, a peaceful and stable Nigeria is crucially 
important to the future of Africa, and we cannot stay on the 
sidelines if it stumbles. Nigeria has the largest economy and 
largest population. We look to Nigeria as an ally in our quest 
to help Africans lead lives free of violence and filled with 
possibility. As an engine of growth and a political giant, 
Nigeria is vital to the success of President Obama's 2012 
strategy toward sub-Saharan Africa. As we implement the 
strategy, we are focusing on building democratic, prosperous, 
and secure Nigeria.
    Since Boko Haram came to the world's attention with a 
massive uprising in 2009, we have been working to help Nigeria 
counter this threat. We provide Nigeria with security 
assistance, which goes toward professionalizing the Nigerian 
military, investigating bomb sites, and enhancing border 
security. We have increasingly placed our response to Boko 
Haram in a regional context. Through our Trans-Saharan 
Counterterrorism Partnership, the Global Counterterrorism 
Forum, and our bilateral relationships with Nigeria's 
neighbors, we are encouraging greater information-sharing and 
border security efforts.
    The importance of regional coordination is clear at a time 
like this as Nigeria and its partners seek to prevent Boko 
Haram from smuggling young women across the border or using 
neighboring countries as safe havens. I must note, however, 
that our ability to encourage regional collaboration is made 
more difficult at this time, as our highly qualified nominees 
to be the Ambassadors to Niger and Cameroon continue to await 
confirmation by the full Senate.
    We have also joined the international effort to isolate 
Boko Haram. In June 2012, the State Department designated Boko 
Haram's top commanders as specially designated global 
terrorists. In June 2013, the State Department added Abubakar 
Shekau, Boko Haram's leader, to our Rewards for Justice Program 
and offered up to $7 million for information leading to his 
location. In November 2013, the State Department designated 
Boko Haram and Ansaru as foreign terrorist organizations. And 
last week, our Ambassador met President Jonathan, and they 
agreed on the importance of quick action on the U.N. 
designation of Boko Haram as a terrorist group. This week, 
Nigeria brought this question to the U.N. Security Council.
    At the same time, we have been urging Nigeria to reform its 
approach to Boko Haram. From our own difficult experiences in 
Afghanistan and Iraq, we know that turning the tide of an 
insurgency requires more than force. The state must demonstrate 
to its citizens that it can protect them and offer them 
opportunity. When soldiers destroy towns, kill civilians, and 
detain innocent people with impunity, mistrust takes root. We 
share these lessons with our partners in Nigeria, urging them 
to ensure that security services respect human rights and 
officials end a culture of impunity while people see the 
benefits of government and diverse voices are heard and 
represented in the capital.
    We have seen some signs of reform. National Security 
Advisor Sambo Dasuki's March announcement of a soft approach to 
countering violent extremism was encouraging. And we have 
worked through our Counterterrorism and Conflict Stabilization 
Operations Bureaus to promote narratives of nonviolence in 
Nigeria.
    As we strike a balance between counseling and empowering 
Nigeria, we regularly send high-level diplomats to Nigeria. On 
May 12 and 13, our Under Secretary for Civilian Security, 
Democracy, and Human Rights, Dr. Sarah Sewall, and AFRICOM 
commander, General David Rodriguez, were in Nigeria to discuss 
how to intensify our efforts against Boko Haram, reform human 
rights practices, and pursue a comprehensive approach.
    All of these policy tools--our security assistance, our 
legal and sanctions actions, and our diplomatic engagement--
constitute the framework within which we are working to help 
Nigeria bring back these girls kidnapped by Boko Haram. 
Resolving this crisis is now one of the highest priorities of 
the U.S. Government.
    Nevertheless, Nigeria's conflict with Boko Haram will not 
end when these young women are brought home. Consequently, 
throughout this crisis, our assistance is framed by our broader 
and long-term policy goal of helping the Nigerians implement a 
comprehensive response to defeat Boko Haram that protects 
civilians, respects human rights, and addresses the underlying 
causes of conflict. We are sharing with the Government of 
Nigeria practices and strategies that will bolster its future 
efforts to defeat this deadly movement.
    Nigeria's importance and the violent attacks committed by 
Boko Haram are both growing. We cannot ignore either trend. We 
welcome the committee's interest in these urgent matters, and 
we look forward to continuing to work with you as we strive to 
bring these young women home and to address the broader threat.
    I look forward to your questions. Thank you.
    [The prepared statement of Ambassador Jackson follows:]

           Prepared Statement of Ambassador Robert P. Jackson

    Chairman Coons, Ranking Member Flake, and members of the committee, 
thank you for inviting me to update you about U.S. efforts to address 
the chilling threat that Boko Haram represents to Nigeria, one of our 
most important partners in sub-Saharan Africa.
    It has now been 1 month since Boko Haram kidnapped more than 200 
hundred girls from the town of Chibok in northeastern Nigeria. At the 
time of the kidnapping, these brave girls had returned to their high 
school in order to complete examinations that would allow them to 
attend university. By seeking knowledge and opportunity, they 
represented a challenge to Boko Haram in the heart of its area of 
operations. As the world now knows, Boko Haram opposes democracy and 
formal education. It has attempted to crush the kind of faith in the 
promise of education and prosperity that families in Chibok showed.
    Boko Haram, the terrorist organization that kidnapped these girls, 
has shown it has no regard for human life. It has been killing innocent 
people in Nigeria for some time, and the attack at Chibok is part of 
that long, terrible trend. This year alone, Boko Haram has murdered 
more than 1,000 innocent people in vicious attacks on schools, 
churches, and mosques. Since 2013, it has targeted and systematically 
kidnapped women--including these girls--seeking to deny them the 
education and opportunity they deserve. The abductions in Chibok fit 
into this larger pattern of violence. Throughout northeastern Nigeria, 
innocent civilians are terrified by gunmen who come in the night to 
kill young men and teachers and steal away young women.
    Boko Haram has also retained its ability to target Abuja, as we saw 
with two recent bombings at the Nyanya bus depot outside the capital. 
And we're concerned by the expansion of the group's operations beyond 
Nigeria, including in Cameroon where it has also conducted kidnappings. 
The group is not just a Nigerian problem; it is a regional security 
problem.
    We join the world, the people of Nigeria, and the parents of these 
children in expressing our outrage at Boko Haram's shocking acts and 
its perverse ideology.
    Young people, in Nigeria and across the globe, deserve the chance 
to pursue their dreams without suffering the predations of violent 
extremists. What happened in Nigeria resonates around the world, and 
pleas to free the kidnapped schoolgirls have come from First Lady 
Michelle Obama, from Pakistani activist Malala Yousafzai, U.N. Special 
Envoy for Global Education Gordon Brown, and other champions of women's 
right to an education.
    This tragic kidnapping demands that we redouble our efforts to 
defeat a Foreign Terrorist Organization that has troubled Nigeria for 
more than a decade. World leaders, including President Obama, have 
pledged their full support to the government and people of Nigeria as 
they seek the safe return of these brave girls. We acted swiftly to 
carry out the President's pledge. By Monday, May 12, the U.S. 
Government had deployed an 18-member interagency team to provide 
military and law enforcement assistance, as well as intelligence, 
surveillance, and reconnaissance support. We have provided commercial 
imagery and are flying manned and unmanned ISR aircraft over Nigeria to 
support the search. We are working closely with international partners 
on the ground, including the U.K. and France, and we are pressing for 
additional multilateral action, including U.N. Security Council 
sanctions on Boko Haram. As the President has directed, we will do 
everything possible to support the Nigerians in their efforts to find 
and free these girls. But we won't stop there. We can and must continue 
to work closely with Nigeria to prevent Boko Haram from harming any 
more innocent people.
    Given Nigeria's importance, Boko Haram cannot be allowed to 
continue its array of bloody tactics: murdering police officers, 
snatching children, destroying churches, burning schools, attacking 
mosques, driving people from their homes, and challenging the 
government's authority.
    Mr. Chairman, a peaceful and stable Nigeria is crucially important 
to the future of Africa, and we cannot stay on the sidelines if it 
stumbles. Nigeria has the continent's largest population and biggest 
economy. We look to Nigeria as a partner in our quest to help Africans 
lead lives free of violence and filled with possibility. As an engine 
of growth, a fountainhead of art and industry, and a political giant, 
Nigeria is vital to the success of President Obama's 2012 Strategy 
Toward Sub-Saharan Africa. As we implement that strategy, we are 
focusing on building a democratic, prosperous, and secure Nigeria.
    Since Boko Haram came to the world's attention with a massive 
uprising in 2009, we have been working to help Nigeria counter this 
threat. We provide Nigeria with security cooperation, which goes toward 
professionalizing the Nigerian military, investigating bomb sites, 
improving border security, and carrying out responsible 
counterterrorism operations. As we hear reports of Boko Haram cells in 
neighboring countries, we have increasingly placed our response to Boko 
Haram in a regional context. Through our Trans-Sahara Counterterrorism 
Partnership, the Global Counterterrorism Forum, and our bilateral 
relationships with Nigeria's neighbors, we are encouraging greater 
information-sharing and border security efforts.
    At the same time, we have been urging Nigeria to reform its 
approach to Boko Haram. From our own difficult experiences in 
Afghanistan and Iraq, we know that turning the tide of an insurgency 
requires more than force. The state must demonstrate to its citizens 
that it can protect them and offer them opportunity. When soldiers 
destroy towns, kill civilians, and detain innocent people with 
impunity, mistrust takes root. When governments neglect the economic 
development of remote areas, confidence can falter. We share these 
lessons with our partners in Nigeria, urging them to ensure that 
security services respect human rights; officials end a culture of 
impunity; people see the benefits of government; and diverse voices are 
heard and represented in the capital. We have seen some signs of 
reform--we were encouraged in March of this year to see National 
Security Advisor Sambo Dasuki announce his ``soft approach'' to 
countering violent extremism, though Nigeria needs to follow through on 
implementing this strategy. We have also worked through our 
Counterterrorism and Conflict and Stabilization Operations Bureaus to 
promote narratives of nonviolence in Nigeria, and we are working 
broadly to protect civilians, prevent atrocities, and ensure respect 
for human rights.
    At the same time, we are providing law enforcement assistance, 
including by training Nigerian law enforcement officials on basic 
forensics, hostage negotiations, leadership, and task force 
development.
    To counter the spread of violent extremist ideology, we support 
programs and initiatives--including job training and education--that 
create economic alternatives for those vulnerable to being recruited by 
terrorist organizations.
    All of this is part of a coordinated effort to help strengthen 
Nigeria's ability to respond responsibly and effectively to these 
challenges in a way that ensures civilians are protected and human 
rights are respected.
    We have also joined the international effort to isolate Boko Haram. 
In June 2012, the State Department designated Boko Haram's top 
commanders as Specially Designated Global Terrorists under section 1(b) 
of Executive Order 13224. In June 2013, the State Department added 
Abubakar Shekau, Boko Haram's official leader, to our Rewards for 
Justice Program and offered up to $7 million for information leading to 
his location. In November 2013, the State Department designated Boko 
Haram and Ansaru as Foreign Terrorist Organizations, under Section 219 
of the Immigration and Nationality Act, as amended, and as Specially 
Designated Global Terrorists under section 1(b) of Executive Order 
13224. Last week, our Ambassador met President Jonathan on the margins 
of the World Economic Forum, and they agreed on the importance of quick 
action on the U.N. designation of Boko Haram as a terrorist group. The 
United Nations Security Council has renewed calls for regional 
cooperation to address Boko Haram. This week, Nigeria brought this 
question to the U.N. Security Council. And as I mentioned, we continue 
to work with Nigeria and others to press for U.N. Security Council 
sanctions on Boko Haram.
    The importance of regional and multilateral coordination is clear 
at a time like this, as Nigeria and its partners seek to prevent Boko 
Haram from smuggling young women across the border or using neighboring 
countries as safe havens. I must note, however, that our ability to 
encourage regional collaboration is made more difficult, at this time, 
as our highly qualified nominees to be the U.S. Ambassadors to Niger 
and Cameroon continue to await confirmation by the full Senate.
    As we strike a balance between helping empower Nigeria and 
counseling its government on reform, we engage regularly with Nigeria 
at all levels of our government. President Obama and Nigerian President 
Jonathan discussed security issues during their bilateral meeting on 
the margins of the U.N. General Assembly last September. Most recently, 
our Under Secretary for Civilian Security, Democracy, and Human Rights, 
Dr. Sarah Sewall, and U.S. Africa Command Commander General David 
Rodriguez spent May 12 and 13 in Nigeria. They met senior Nigerian 
security officials to discuss how to intensify efforts against Boko 
Haram, reform human rights practices, and pursue a comprehensive 
approach to Boko Haram. Under Secretary Sewall and General Rodriguez 
devoted considerable attention to the crisis surrounding the kidnapped 
women. Under Secretary Sewall called the principal of the young women's 
school in Chibok to express U.S. outrage and deep concern about the 
deplorable kidnapping.
    All of these policy tools--our security cooperation, our legal and 
sanctions actions, and our diplomatic engagement--constitute the 
framework within which we are working to help Nigeria safely bring back 
the women kidnapped by Boko Haram. Resolving this crisis is now one of 
the highest priorities of the U.S. Government. As I mentioned when I 
began, we deployed an interagency team to advise Nigerian authorities 
on how to recover safely and assist these young women. Led by a senior 
diplomat from our Africa Bureau, the team is liaising with counterparts 
across Nigeria's Government to offer specialized expertise on military 
and law enforcement best practices, hostage negotiation, intelligence 
gathering, strategic communications, and how to mitigate the risks of 
future kidnappings. At the same time, USAID has mobilized resources to 
provide humanitarian assistance to those affected by Boko Haram 
violence, including through the provision of psychosocial and medical 
support and treatment. We are cooperating thoroughly with the U.K., 
France, and a host of other countries who are also dedicating 
significant interagency manpower, resources, and time to this effort. 
Our field team remains in close, coordinated contact with State 
Department headquarters here in Washington.
    Nevertheless, Nigeria's conflict with Boko Haram will not end when 
these young women are bought home. Consequently, throughout this 
crisis, our assistance is framed by our broader and long-term policy 
goal of helping the Nigerians implement a comprehensive response to 
defeating Boko Haram that protects civilians, respects human rights, 
and addresses the underlying causes of the conflict. We are sharing 
practices and strategies with the Government of Nigeria that will 
bolster its future efforts to defeat this deadly movement.
    Nigeria's importance and the violent attacks committed by Boko 
Haram are both growing. We cannot ignore either trend. We welcome your 
interest in these urgent matters, and we look forward to continuing to 
work with you as we strive to bring these young women home and address 
the broader threat posed by Boko Haram.

    Senator Coons. Thank you, Ambassador Jackson.
    Assistant Administrator Gast.

   STATEMENT OF HON. EARL GAST, ASSISTANT ADMINISTRATOR FOR 
  AFRICAN AFFAIRS, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Gast. Chairman Coons, Ranking Member Flake, and 
Chairman Menendez, thank you for the opportunity for me to 
speak before you today about the brutal kidnapping of more than 
250 young girls from their school just 1 month ago.
    This latest brutality was not an isolated incident. For 
years, Boko Haram has terrorized the people of northern 
Nigeria. They have attempted to exploit northern Nigeria's low 
level of infrastructure, development, and security that affects 
all aspects of life, from economic growth to access to basic 
services, resulting in the north's growing isolation.
    This conflict has caused decreases in agricultural 
production, price spikes, and serious concerns about food 
security, both in the north and also in neighboring states. For 
example, Niger is import-dependent and dependent on exports 
from Nigeria.
    In Nigeria, nearly 4.2 million persons are at risk of food 
insecurity, and continued unrest will likely have long-term 
impacts on nutrition, agriculture, and trade. It is projected 
that by 2015 Nigeria will soon be home to the largest number of 
persons worldwide living in extreme poverty.
    In May 2013, due to an escalation of violence, the 
Government of Nigeria declared a state of emergency in Adamawa, 
Borno, and Yobe states. In early 2014, attacks carried out by 
Boko Haram militants killed more than 1,500 persons. According 
to the U.N., violence had displaced more than a quarter of a 
million persons to neighboring states by only a few months 
later, in March, 70 percent of whom were women and children. In 
communities hosting internally displaced persons, the presence 
of additional families is straining local resources, including 
already stretched water systems and basic commodities.
    To determine the extent of this crisis, the U.N., along 
with key international NGOs, are currently conducting a 
multiagency, multisector needs assessment, and USAID is a part 
of that assessment team. Last week, a team of humanitarian 
professionals from the U.N. and the NGO community traveled to 
the areas that are now part of the state of emergency, as well 
as three bordering states that have received most of the IDPs, 
the internally displaced persons. This team is meeting with 
state and local officials, with the displaced persons 
themselves, and other community members to establish the number 
of displaced persons, where they are living, their ability to 
access food, income, health care, education, and water and 
hygiene. The team will also evaluate food security, nutrition, 
and protection services along with identifying actors who are 
on the ground and who can help develop the most effective 
approaches to deliver relief.
    We will use the results of this mission to shape the 
provision of humanitarian assistance, in partnership with 
others, to meet urgent humanitarian needs among affected 
families. Assistance will include food, shelter, safe drinking 
water, emergency treatment of acute malnutrition, community-
based psychosocial support, and programs target at preventing 
and treating sexual and gender-based violence.
    Exacerbating this humanitarian crisis is Boko Haram's 
assaults on youth seeking education. A good education is a 
global public good, and it is a necessary ingredient for 
economic development and poverty reduction. Education enables 
people to live healthier lives, fulfill their potential, and it 
also contributes to open, inclusive, and vibrant societies. 
These attacks undermine northern Nigeria's already precarious 
educational system by destroying schools, forcing others to 
close, and keeping thousands of students and teachers out of 
the classroom. School attendance in the region, already well 
below the national rate, will continue to suffer.
    USAID has active programs in nearly all of Nigeria's 
northern states, with a particular focus on Bauchi and Sokoto. 
Through our education programs in the north, we have increased 
access to basic education services for more than 15,000 orphans 
and vulnerable children; we have strengthened the capacity of 
some 24 education-related NGOs; and we have also influenced 
Nigeria's Educational Research and Development Council to 
include reading as a core objective of its curriculum.
    USAID's conflict mitigation program, active in six states 
in the north, including Borno, the state most affected by the 
violence, has funded numerous community training programs on 
conflict mitigation. We have supported and trained conflict 
management and mitigation councils. And we have carried out, in 
partnership with local organizations, phone-in interfaith 
dialogues on radio and television programs.
    Today, our thoughts are with the schoolgirls and their 
families and the millions of Nigerians forced to live under the 
threat of Boko Haram's violence every day.
    Thank you. And I look forward to your questions.
    [The prepared statement of Mr. Gast follows:]

                  Prepared Statement of Hon. Earl Gast

    USAID partners around the world to end extreme poverty and promote 
resilient, democratic societies, while advancing our security and 
prosperity. Our work in northern Nigeria highlights the nexus between 
security, stability, and poverty reduction. We are committed to working 
with Nigeria to build a peaceful society that promotes inclusive 
economic growth and lifts its citizens out of poverty.
    One month ago, Boko Haram militants kidnapped more than 250 young 
girls from their school in an attack so shocking it mobilized the world 
behind returning these girls to their families. But this latest 
brutality was not an isolated incident. For years, Boko Haram has 
terrorized the people of northern Nigeria through bombings, kidnapping, 
and sexual violence.
    For decades, development in the northern part of the country has 
markedly lagged behind the relative progress made in the south as is 
evident through comparison of development indicators in Nigeria's six 
geopolitical zones. In the three northern zones, per capita incomes are 
significantly lower than the national average. Literacy in the 
southwest zone is around 80 percent for girls, while in the northeast 
it is only 15 percent. Health statistics paint a similar picture of 
disparity. Immunization coverage in the northeast is only about 8 
percent, while in the south-south it is closer to 36 percent.
    In recent years, Boko Haram has attempted to exploit northern 
Nigeria's low level of infrastructure, public services, and security. 
Boko Haram attacks have affected all aspects of life, from economic 
growth to access to basic services, and resulted in the north's growing 
isolation. Commercial activity in Kano, once a national economic hub, 
is estimated to have decreased by 50 percent in recent years, due in 
large part to the stream of businesses that have left northern states 
like Borno and Kaduna for the stability of the south.
    The conflict has caused decreases in agricultural production, price 
spikes, and serious concerns about food security both in the north and 
neighboring states, particularly import-dependent Niger. In Nigeria, 
nearly 4.2 million people are at risk of food insecurity, and continued 
unrest will likely have long-term impacts on nutrition, agriculture, 
and trade.
    Access to health care has dramatically declined in the hardest hit 
conflict areas; in Borno state, doctors are fleeing and clinics are 
closing, forcing the population into neighboring Cameroon for basic 
health services. Boko Haram has also been targeting cell phone towers 
so people in the region have less access to communications.
    As violence began to escalate, the Government of Nigeria declared a 
state of emergency in Adamawa, Borno, and Yobe states in May 2013. In 
early 2014, attacks carried out by Boko Haram militants killed more 
than 1,500 people. According to the U.N., violence had displaced more 
than a quarter million people to neighboring states by March 2014--70 
percent of them women and children. An additional 61,000 people, 
including returning migrants, have also fled to neighboring Niger, 
Cameroon, and Chad, where they are living in host communities.
    In communities hosting internally displaced persons, the presence 
of additional families is straining local resources, including already-
stretched water systems and basic commodities. Increasing numbers of 
female-headed households is forcing widows to become the sole providers 
for their families. Such households and widows are exposed to 
additional violence within host communities. In the absence of their 
husbands, widows also lack access to financial resources, exacerbated 
by inheritance laws, and systems that limit women's ownership of 
property.
                         situational assessment
    Due to insecurity, presence of aid workers in the most affected 
areas is very limited and we do not yet have a comprehensive picture of 
the overall humanitarian situation. To determine the extent of the 
crisis, the U.N. along with key international nongovernmental 
organizations are currently conducting a multiagency, multisector needs 
assessment. Last week, a team of humanitarian professionals from the 
U.N. and NGOs traveled to the areas in states of emergency (Borno, 
Yobe, and Adamawa) as well as three bordering states (Bauchi, Gombe, 
and Taraba) that have received the most internally displaced people.
    This team is currently interviewing state and local officials and 
meeting with internally displaced persons and other community members 
to establish the number of displaced people, where they live, and their 
level of access to food, income, health care, education, water, 
sanitation, and hygiene. The team will also evaluate food security, 
nutrition, and protection services, identify humanitarian actors still 
on the ground, and develop the most effective approaches to deliver 
relief and identify opportunities to strengthen the capacity of state 
governments and local partners to monitor displacement, report, assess, 
and coordinate delivery of relief.
    USAID humanitarian experts have been involved in the assessment 
process since the beginning, working to help define indicators and 
processes. USAID humanitarian experts are currently in Nigeria and will 
continue to support the work of the U.N. and other agencies. USAID will 
use the results of this mission to shape the provision of humanitarian 
assistance in partnership with implementing organizations to meet 
urgent humanitarian needs among affected families. Assistance may 
include providing food, shelter, and household items for displaced 
populations; safe water in communities whose resources have been 
overstretched because of an influx of new families; support to 
emergency treatment of acute malnutrition; or community-based 
psychosocial support and programs targeted at the prevention and 
treatment of sexual and gender-based violence. USAID is also exploring 
opportunities for collaboration with key Nigerian agencies, the 
Nigerian National Emergency Management Agency, local emergency response 
actors as well as supporting efforts to increase food security data 
collection and analysis to inform potential response options.
    Once completed, the U.N. and USAID assessments will give us a 
better understating of the situation and how best to respond, taking 
into account the operational realities of programming in Northern 
Nigeria.
                         an attack on education
    Exacerbating the humanitarian crisis, Boko Haram's assaults on 
youth seeking education has become ever more brazen over the past 2 
years. A good education is a global public good, and a necessary 
ingredient for economic development and poverty reduction. Education 
enables people to live healthier and more productive lives, allowing 
them to fulfill their own potential, as well as to strengthen and 
contribute to open, inclusive and economically vibrant societies.
    Boko Haram's attacks on schools had consisted of destroying empty 
school buildings at night, but more recently has shifted to targeting 
Muslim and non-Muslim students and staff with guns, knives, and 
explosives. The group has killed or wounded hundreds of students and 
teachers since June 2013. The mass abduction of female students in 
Chibok marked a frightening shift: While in prior attacks, Boko Haram 
generally instructed female students to flee, they are now publically 
calling on girls to abandon Western education or be taken as slaves.
    Boko Haram is also seeking to perpetuate child marriage as an 
acceptable practice and is using it to sow fear, intimidation, and 
coercion.
    These attacks undermine northern Nigeria's already precarious 
educational system by destroying schools, forcing others to close, and 
keeping thousands of students and teachers out of the classroom. School 
attendance in the region, already well below the national rate, most 
likely will continue to suffer.
                            usaid assistance
    USAID has active programs in nearly all of Nigeria's northern 
states, with a particular focus on Bauchi and Sokoto. Through our 
education programs in the north, we have increased access to basic 
education services for over 15,000 orphans and vulnerable children, 
strengthened the capacity of 24 education-related nongovernmental 
organizations to responsibly manage their finances, and influenced 
Nigeria's Educational Research and Development Council to include 
reading as a part of the education curriculum.
    Through our economic growth programs, USAID has built the capacity 
of export firms, helped medium-sized, small, and microenterprises gain 
access to loans, and supported the development of a new customs and 
excise management act to reform and modernize the Nigerian customs 
service. At the same time, the Feed the Future program has helped 
Nigerian farmers more than double their yields in maize, rice, and 
sorghum, and leveraged millions of dollars in credit for thousands of 
beneficiaries and for numerous private sector partnerships.
    USAID has also helped the Sokoto and Bauchi State Houses of 
Assembly pass public procurement and fiscal responsibility laws, 
trained over 900 government officials in public procurement and 
financial management practices, and assisted with the passing of the 
federal freedom of information act and its adoption at the state 
levels.
    USAID's conflict mitigation program--active in six states in the 
north, including Borno, the state most affected state by Boko Haram's 
violence--has funded numerous community training programs on conflict 
mitigation, reconstituted and trained Conflict Management and 
Mitigation Regional Councils, and carried out phone-in interfaith 
dialogues on radio and television programs.
    Regionally, the Trans-Sahara Counterterrorism Partnership, which 
USAID implements alongside the Departments of State and Defense, 
includes a regional Peace for Development program in Burkina Faso, 
Niger, and Chad--areas that are vulnerable as they may become fertile 
ground for the expansion of violent extremist groups. This initiative 
applies a holistic, community-led approach that has reached nearly 3.8 
million people from at-risk groups through youth-led community 
mobilization activities, radio programming, and training in management 
skills, budgeting, leadership, vocational trades, and conflict 
resolution. In other areas of the Sahel, USAID supports a vocational 
education program in Mauritania and has expanded our program to counter 
violent extremism to key areas of Northern Mali. Given the immense size 
of the Sahel, interventions are limited to communities with the highest 
risk factors, which have been identified through assessments conducted 
by the project. A number of those target communities are in areas of 
Niger and Chad that border Nigeria. These programs have led to a 
noticeable rise in community action. This week, a local youth 
organization in Bamako, Mali, is sponsoring a mass demonstration and 
public outreach around the issue of the kidnapping of the Nigerian 
schoolgirls.
    Today our thoughts are with the schoolgirls, their families; and 
the millions of Nigerians forced to live under the threat of Boko 
Haram's violence every day.

    Senator Coons. Thank you very much.
    Principal Director Friend, thank you for joining us today. 
We welcome your testimony.

   STATEMENT OF ALICE FRIEND, PRINCIPAL DIRECTOR FOR AFRICAN 
      AFFAIRS, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ms. Friend. Chairman Coons, Ranking Member Flake, members 
of the committee, thank you for calling us together to address 
the deeply disturbing abductions of over 270 schoolgirls in 
northern Nigeria by the terrorist organization Boko Haram.
    People of good will across the globe have been horrified by 
this barbarous act and are rightly demanding that the Nigerian 
authorities take immediate measures to recover the girls, and 
are asking what those of us in the international community can 
do to support Nigerian efforts.
    Last Friday, the United States dispatched a 
multidisciplinary State Department-led team of experts to Abuja 
to provide the Government of Nigeria with the specialized 
advice and expertise it needs to respond to these abductions. 
DOD has provided four subject-matter experts from U.S. Africa 
Command Headquarters in Stuttgart, Germany, to augment 10 DOD 
personnel already assigned to our Embassy in Abuja as part of 
this interagency team. In addition, two military officers with 
extensive experience supporting the Counter-Lord's Resistance 
Army Mission in Uganda also have been temporarily relocated to 
Abuja to provide their advice and assistance.
    In total, 16 DOD personnel with medical, intelligence, 
counterterrorism, and communications expertise have been 
assigned exclusively to the mission of advising the Nigerian 
security forces' efforts to recover these girls. Secretary 
Jackson also mentioned the concurrent visit of the commander of 
Africa Command, General Rodriguez, to engage with his Nigerian 
counterparts alongside Under Secretary Sewall. Their initial 
efforts have been to work with Nigerian security personnel to 
analyze Nigerian operations, identify gaps and shortfalls, and 
otherwise provide requested expertise and information to the 
Nigerian authorities, including through the use of 
intelligence, surveillance, and reconnaissance support. We are 
also working closely with other international partners, 
including the U.K. and France, to coordinate multilateral 
actions and maximize our collective assistance efforts.
    Mr. Chairman, the threat to Nigeria from Boko Haram has 
grown over the past 5 years, and mutates day by day, extending 
its reach, increasing the sophistication and lethality of its 
attacks, and growing its military capacity. These most recent 
attacks are especially unconscionable because they were 
perpetrated against innocent girls and because of the sheer 
scale of the attack in Chibok.
    Unfortunately, these kidnappings are only the most recent 
outrages in a growing portfolio of attacks perpetrated by Boko 
Haram in its war against education. On July 6, 2013, in an 
attack on the secondary school in Mamudo Village, 29 students 
were killed, including reports that some were burned alive when 
their dormitory was deliberately set on fire. Overnight between 
September 28 and 29, 2013, upward of 40 students were 
slaughtered in a nighttime attack on the Yobe State College of 
Agriculture. And in yet another nighttime attack, this at the 
Buni Yadi Federal Government College in February of this year, 
at least 59 people, including boys ranging in age from 11 to 
18, were killed.
    The Department has been deeply concerned for some time by 
how much the Government of Nigeria has struggled to keep pace 
with Boko Haram's growing lethality and capabilities. 
Recognizing this threat and the need for Nigeria to adopt a 
whole-of-government approach to defeating it, over the past 
several years DOD has undertaken a number of initiatives to 
assist Nigeria in its counter-Boko Haram efforts. For example, 
we have supported the establishment of counter-IED and civil-
military operations capacity within the Nigerian Army. We have 
also supported the establishment of an intelligence fusion 
center in an effort to promote information-sharing among 
various national security entities and, overall, to enable more 
effective and responsible intelligence-driven counterterrorism 
operations. More recently, we have begun working with Nigeria's 
newly created Ranger Battalion to impart the specialized skills 
and disciplines needed to mount effective counterterrorism 
operations.
    Mr. Chairman, as dedicated as the Department of Defense is 
to supporting Nigeria in its fight against Boko Haram and in 
recovering these girls safely, we cannot ignore that Nigeria 
can be an extremely challenging partner to work with. In the 
face of this sophisticated threat, Nigeria's security forces 
have been slow to adapt with new strategies, new doctrines, and 
new tactics. Even more troubling, Nigeria's record of 
atrocities perpetrated by some of its security forces during 
operations against Boko Haram have been widely documented. As 
we have advised the Nigerians, consistent with U.S. law and 
policy, we review security-force units who may receive 
assistance, and we cannot, and do not, provide assistance when 
we have credible information that those units have committed 
gross violations of human rights.
    With this important consideration in mind, we have worked 
to engage where and how we are able to in viewing our 
engagements and training efforts with human rights and Law of 
Armed Conflict modules and emphasizing the importance of the 
broad counterinsurgency approach that we, ourselves, have spent 
so much blood and treasure fulfilling. Indeed, if this tragic 
episode is to end the way we all hope it will, Nigeria's 
leaders must continue to match their public statements with a 
serious and focused response that draws on all elements of 
their government and makes maximum use of the resources 
international partners are offering to them. This will not be 
an easy task. We are still seeking information on whether, 
where, and how the girls may have been dispersed. But, DOD is 
committed to supporting Nigeria in locating these girls and 
seeing them safely returned to their loved ones.
    Thank you again for convening us here today, and I look 
forward to your questions.
    [The prepared statement of Ms. Friend follows:]

                   Prepared Statement of Alice Friend

    Chairman Coons, Ranking Member Flake, members of the subcommittee, 
thank you for calling us together to address the deeply disturbing 
recent abductions of over 270 school girls in northern Nigeria by the 
terrorist organization Boko Haram. People of good will across the globe 
have been horrified by this barbarous act and are rightly demanding 
that the Nigerian authorities take immediate measures to recover the 
girls and are asking what those of us in the international community 
can do to support Nigerian efforts.
    Last Friday, the United States dispatched a multidisciplinary, 
State Department-led team of experts to Abuja to provide the Government 
of Nigeria with the specialized advice and expertise it needs to 
respond to these abductions. DOD has provided four subject matter 
experts from USAFRICOM headquarters to augment 10 DOD personnel already 
assigned to our Embassy in Abuja as part of this interagency team. In 
addition, two military officers with extensive experience supporting 
the counter-Lord's Resistance Army mission in Uganda also have been 
temporarily relocated to Abuja to provide advice and assistance. In 
total, 16 DOD personnel with medical, intelligence, counterterrorism 
and communications expertise have been assigned exclusively to the 
mission of advising the Nigerian security forces' efforts to recover 
these girls safely. Their initial efforts have been to work with 
Nigerian security personnel to analyze Nigerian operations, identify 
gaps and shortfalls, and otherwise provide requested expertise and 
information to the Nigerian authorities, including through the use of 
intelligence, surveillance, and reconnaissance support. We are also 
working closely with other international partners, including the U.K. 
and France, to coordinate multilateral actions and maximize our 
collective assistance efforts.
    Our intent is to support Nigerian-led efforts to recover the girls 
and help catalyze greater efforts to secure the Nigerian population 
from the menace of Boko Haram. The Department of Defense stands ready 
to do what we can to help the Nigerian Government, but both the 
immediate and the long-term solutions to the threat Boko Haram poses to 
the people of Nigeria must be implemented by the Government of Nigeria 
if a sustained security is ever to be reached.
    Mr. Chairman, that threat to Nigeria from Boko Haram has grown over 
the past 5 years and mutates day by day, extending its reach, 
increasing the sophistication and lethality of its attacks, and growing 
its military capacity. It has now proven on multiple occasions--for 
example, through its successful attack on a Nigerian air base in which 
two of the Nigerian air force's helicopters were destroyed, as well as 
the coordinated, methodical and highly successful attack at Giwa 
barracks--that it is now capable of directly and successfully engaging 
Nigeria's Armed Forces. Its expanded reach was also convincingly and 
tragically demonstrated when over 70 innocent Nigerian citizens were 
killed in a vehicle-borne IED attack just outside the national capital 
of Abuja.
    These most recent attacks are especially unconscionable because 
they were perpetrated against innocent girls and because of the sheer 
scale of the attack in Chibok. Unfortunately these kidnappings are only 
the most recent outrages in a growing portfolio of attacks perpetrated 
by Boko Haram in its war against education. On June 16-17, 2013, seven 
students and two teachers were killed when Boko Haram members attacked 
the Government Secondary School in Damaturu, Yobe state. This was 
followed on July 6, 2013, by an attack on the secondary school in 
Mamudo village, in which 29 students were killed, including reports 
that some were burned alive when their dormitory was deliberately set 
on fire. On September 28-29, 2013, upward of 40 students were 
slaughtered in a nighttime attack by Boko Haram on the Yobe State 
College of Agriculture. And in yet another nighttime attack, this time 
at the Buni Yadi Federal Government College on February 18 of this 
year, at least 59 people, including boys ranging in age from 11 to 18, 
were killed.
    The Department has been deeply concerned for some time by how much 
the Government of Nigeria has struggled to keep pace with Boko Haram's 
growing capabilities. Recognizing this threat and the need for Nigeria 
to adopt a whole-of-government approach to defeating it, over the past 
2 years the United States has made a concerted effort to assist Nigeria 
in its counter-Boko Haram efforts. For its part, DOD has undertaken a 
number of initiatives. For example, we have supported the establishment 
of counter-IED and civil-military operations capacity within the 
Nigerian Army in order to make C-IED an integral part of Nigeria's 
security doctrine. The concept is to build Nigerian institutions so 
that C-IED skills are organic and can be maintained and passed along by 
the Nigerians themselves. We have also supported the establishment of 
an intelligence fusion center in an effort to promote information-
sharing among various national security entities and, overall, to 
enable more effective and responsible intelligence-driven CT 
operations. More recently, we have begun working with Nigeria's newly 
created Ranger Battalion to impart the specialized skills and 
disciplines needed to mount effective CT operations.
    As has been demonstrated during recent Boko Haram movements and 
attacks, porous borders with Nigeria's northeastern and western 
neighbors can also facilitate these terrorists' operations in the 
region. For this reason, DOD and the Department of State are working 
closely and actively to develop a regional response to the Boko Haram 
threat to enhance border security along Nigeria's common borders with 
Chad, Niger, and Cameroon. The concept is to build border security 
capacity with, and promote better cooperation and communication among, 
the security forces of each country. In some cases, assistance would go 
to the military, in others the gendarmerie, and in still others 
immigration forces, to more effectively detect and respond to the 
movement of Boko Haram members back and forth between Nigeria and its 
neighbors. If we can build these basic but critical capacities, serious 
progress can be made toward halting Boko Haram's spread and reversing 
some of the gains it has made.
    As committed as the U.S. is to supporting Nigeria in its fight 
against Boko Haram and in returning these girls safely to their 
families, we cannot ignore that Nigeria can be an extremely challenging 
partner to work with. In general Nigeria has failed to mount an 
effective campaign against Boko Haram. In the face of a new and more 
sophisticated threat than it has faced before, its security forces have 
been slow to adapt with new strategies, new doctrines and new tactics. 
Even more troubling, Nigeria's record of atrocities perpetrated by some 
of its security forces during operations against Boko Haram has been 
widely documented. As we have advised the Nigerians, consistent with 
U.S. law and policy, we review security force units who may receive 
assistance, and we do not provide assistance when we have credible 
information that they have committed gross violations of human rights. 
With this important consideration in mind, we have worked to engage 
where and how we are able to, imbuing our engagements and training 
efforts with human rights and law of armed conflict modules and 
emphasizing the importance of the broad counterinsurgency approach that 
we ourselves spent so much blood and treasure fulfilling.
    No discussion of how to address the Boko Haram threat would be 
complete without addressing some of the political dynamics in Nigeria 
underlying the security environment. In spite of its vast oil wealth, 
Nigeria continues to face enormous development challenges. These 
factors combine with pervasive federal and state government corruption 
and Boko Haram's brutal terrorization of the population have made 
northern Nigerians susceptible to antigovernment narratives and 
afforded the group a more permissive operating environment. The long-
term solution to Boko Haram does not depend exclusively on Nigeria's 
military or security forces, but also requires Nigeria's national 
political leaders to give serious and sustained attention to addressing 
the systemic problems of corruption, the lack of effective and 
equitable governance, and the country's uneven social and economic 
development.
    Nevertheless, we will not lose our focus on the heartrending event 
that has brought us here today. The tragic situation of these girls and 
the families who hope for their safe return has captured the attention 
of the world. As I have highlighted already, DOD is committed to 
supporting Nigeria's efforts to locate these girls and to seeing them 
safely returned to their loved ones. This will not be an easy task. We 
are still seeking information on whether and how the girls may have 
been dispersed. Indeed, if this tragic episode is to end the way we all 
hope it will, the government of Nigeria must continue to match its 
public statements with a serious and focused response that draws on all 
elements of its government and making maximum use of the resources 
international partners are making available to it.

    Senator Coons. Thank you, Principal Director Friend.
    Thank you, to this panel, for your testimony.
    I would like to now begin questions in 7-minute rounds. And 
I will remind all of us, we have a scheduled vote at 11:15 and 
following a second-panel witness.
    If I might start, I would just like to begin with a direct 
question to each of you. You have addressed this in longer 
form, but if I could just have a, in the interest of time, 
concise and direct answer. When did your agency make its first 
offer of assistance after the kidnappings? What did that offer 
entail? What was the Nigerian Government's response? And what 
do you see as the real impediments toward the Nigerians taking 
full advantage of the opportunities and resources we have 
offered?
    Ambassador Jackson.
    Ambassador Jackson. Thank you, Mr. Chairman.
    Secretary Kerry called President Jonathan roughly 2 weeks 
ago today, made the offer, which President Jonathan accepted 
with alacrity. And it involved intelligence collection and 
support and other resources that I described in my testimony.
    Senator Coons. Assistant Administrator Gast.
    Mr. Gast. Almost immediately after the incident, the 
Embassy and USAID declared a state of emergency, which allowed 
us to bring in additional resources and assessment teams. So, 
that was one way.
    The second was, our Administrator almost immediately 
traveled--after the incident, traveled to Nigeria to meet with 
the government as well as participate in other discussions, but 
certainly did focus on this issue.
    Senator Coons. Thank you.
    Principal Director Friend.
    Ms. Friend. Sir, the State Department took the lead in 
making the initial offers. However, once the Government of 
Nigeria, in fact, accepted our offer of assistance--I believe 
that was on the 4th of May--the Department had ISR overflight 
by the 9th of May.
    Senator Coons. Thank you.
    If I could, Ambassador Jackson--as you mentioned in your 
testimony, in 2012 the State Department deliberated over 
whether to designated Boko Haram as an organization--as a 
foreign terrorist organization--or to designate top leaders, 
which, indeed, happened in 2012, and then the group as a whole 
as an FTO the following year. But, what were the implications 
of designating those three individuals in 2012? And what 
additional steps have been taken by the administration to 
target Boko Haram's funding and other sources of support? And 
why was there not initially unanimity around designating the 
whole organization?
    Ambassador Jackson. Senator, the debate about whether to 
designate Boko Haram dates back many years, to at least 2011. 
And I think, as former Assistant Secretary Johnny Carson has 
explained in media interviews, the debate was really about the 
Nigerian attitude toward designation. The Government of Nigeria 
feared that designating these individuals and the organizations 
would bring them more attention, more publicity, and be 
counterproductive.
    For some time, we accepted that point of view. And the fact 
that the Nigerians are only now asking the U.N. to designate 
them continues to reflect Nigerian hesitancy over the impact of 
these designations. But, we decided to move ahead in 2012, 
precisely because we were convinced that they met the criteria 
for designation.
    Senator Coons. Thank you.
    If you would, Assistant Administrator Gast, describe the 
strategy of the Nigerian Government to address the root causes 
of Boko Haram support in northern Nigeria. The hearing that we 
conducted 2 years ago could almost literally be repeated today, 
in terms of ongoing structural challenges that have led to this 
insurgency and have created the conditions, and sustained and, 
in some ways, accelerated the conditions, for Boko Haram.
    Mr. Gast. As the Principal Deputy Assistant Secretary 
mentioned in his testimony, there is a realization within the 
national security--among the national security group, including 
the security advisor himself, Dasuki, that this is a major 
concern. And so, there are two units within the National 
Security Advisor's office that are working on developing plans 
for the north: one, a massive, long, multiyear development 
program; another one that would help address the immediate 
concerns of security, community, development. We are advising 
those two groups and helping identify areas where we can assist 
in providing programming support.
    Senator Coons. Girls in Nigeria and around the world are 
risking their lives every day just to get an education. USAID 
does deliver significant support for education opportunities, 
and, in particular, for the inclusion of women and girls in 
education. But, with a decline in USAID's funding request for 
education programming, I am concerned we may not have enough 
resources to do what we should and what we must in Nigeria and 
elsewhere. USAID support is predominantly focused in Bauchi and 
Sokoto states--as you said, a small portion of the total north. 
Please speak, if you would, to the strategy for how to continue 
to support education, which really is the root cause of a lot 
of the violence, in this instance, the insistence on access to 
education for women.
    Mr. Gast. Education has always been a robust element of our 
program support in Nigeria. And if one were to look at the 
continent as a whole, the budget for education in Nigeria 
represents about 10 percent of the entire education budget. So, 
it is a significant contribution that we are making.
    The question is, Are we placing the resources in the right 
areas? And certainly because of access issues, it is extremely 
difficult to program resources in the north. We are working 
with DFID, the British development agency, and we believe we 
are very close to announcing a major effort to support 
education, primarily girls' education, secure education in the 
north.
    Senator Coons. Thank you.
    Principal Director Friend, tell me more, if you would, 
about the Trans-Sahel Counterterrorism Partnership and what we 
have done regionally with other countries that are directly 
affected by Boko Haram--Chad, Niger, Cameroon. And, if you 
would, just as a last question--you mentioned the gross human 
rights violations committed by some elements of the Nigerian 
Armed Forces. We are still able to find units with which we can 
partner. And it is still possible for the Nigerian military 
police and security forces to take the lead in ensuring the 
return--the safe return of the Nigerian schoolgirls. Is that 
not correct?
    Ms. Friend. Yes, sir. I will take those questions in 
reverse. That is correct. I mentioned in my testimony the 
Ranger Battalion that we will begin training, in fact, this 
month, and pretraining programming has begun to lay in the 
groundwork for that. So, we are able to find units inside the 
Nigerian Armed Forces that, in fact, pass Leahy vetting, and 
have passed Leahy vetting. It is, however, a persistent and 
very troubling limitation on our ability to provide assistance, 
particularly training assistance, that the Nigerians so badly 
need. This is one of the things that we have been talking to 
them about for quite some time.
    Another recent engagement that was also interagency in 
nature was a counterinsurgency-focused trip to Nigeria, I 
believe last fall, where we were urging them to take a more 
holistic approach, and a, frankly, much less brutal approach, 
in the north against Boko Haram.
    To your question of the Trans-Sahel Counterterrorism 
Partnership, it is a State Department-led effort, so I do not 
want to speak out of turn for Mr. Jackson, but I will say that, 
in the region, we have been working increasingly with the 
Cameroonians and the Nigerians and the Chadians to talk about 
the regional threat that Boko Haram poses. As you, I am sure, 
have heard in the press, there is some thought that some of the 
girls may have been taken over international borders. And, of 
course, the border with Cameroon and Niger, in particular, is 
very porous, and we do know that Boko Haram does operate back 
and forth across the international border, particularly with 
Cameroon. The Cameroonian Government and the Cameroonian 
President, in particular, have recently been taking Boko Haram 
even more seriously than previously, and we are working with 
them and with the Nigerians and the Chadians to assist them and 
to do everything we can to ensure that all these countries 
coordinate with each other.
    Senator Coons. Thank you very much.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thanks for the testimony.
    Ms. Friend, with our cooperation or assistance to the 
military, to what extent is it complicated by some of the rules 
and regulations we have about dealing with militaries that have 
human rights abuses lodged against them or have problems that 
way? What restrictions are we under? And how does that limit 
our ability to work with them?
    Ms. Friend. So, essentially, sir, under the Leahy 
provision, any unit that we suspect of having committed gross 
human rights violations, we cannot provide military training or 
assistance to. The broader implications of your question, 
however--``How much does it affect our engagement with 
Nigeria?''--it affects it very much. We have struggled a great 
deal, in the past, to locate units that we can work with, and, 
indeed, to convince the Nigerians to change their tactics, 
techniques, and procedures toward Boko Haram.
    Another way that we are very, very careful to ensure that 
we are only providing assistance to those who will not use it 
in ways that may affect civilians or otherwise violate 
international human rights standards is our intel-sharing. 
Though sharing intelligence with a foreign government that is 
available to--intelligence that is available to DOD would not 
normally be considered assistance subject to the DOD Leahy law, 
we nevertheless are exceedingly cautious when it comes to 
sharing information with the Nigerians, because of their 
unfortunate record. In this case, for example, we have sought 
assurances from them, that Ambassador Entwistle delivered a 
couple of days ago, that they will use any information that we 
pass to them from this ISR support in a manner consistent with 
international humanitarian and human rights law.
    Senator Flake. As I understand it, we have a couple of 
issues with the military. One, they have been using pretty 
brutal tactics and pretty brutal justice, if you will, with 
regard to Boko Haram in the north, but also there is some fear 
that some of its ranks are infiltrated with Boko Haram 
sympathizers. Is that a concern, as well, the latter?
    Ms. Abdullahi. That is a concern, sir. I would say an even 
greater concern is the incapacity of the Nigerian military and 
the Nigerian Government's failure to provide leadership to the 
military in a way that changes these tactics. The division in 
the north that mainly is engaging with Boko Haram, the 7th 
Division, has recently shown signs of real fear. They do not 
have the capabilities, the training, or the equipping that Boko 
Haram does. And Boko Haram is exceptionally brutal and 
indiscriminate in their attacks. And so, as heavyhanded as the 
forces on the Nigerian side have been, Boko Haram has been even 
more brutal.
    And so, we are now looking at a military force that is, 
quite frankly, becoming afraid to even engage. And that is one 
of the things that we are talking to the military leadership in 
Abuja about right now, about how to get the training and also 
the orientation of the forces under control so that they will 
feel more competent to face the threat.
    Senator Flake. The military's decline in effectiveness in 
Nigeria is really traced to fear that the political leadership 
has to military coup. And that has been the pattern that has 
been followed around other countries, as well. Is that what you 
trace the decline to? And is this political leadership now, 
this President and those around him, do they fear strengthening 
the military for that purpose, fearing a coup later? What is 
the relationship right now between the political leadership and 
the military?
    Ms. Friend. The relationship between the political 
leadership and the military itself is reasonably healthy. My 
understanding is that the weakening of the Nigerian military 
does trace back a couple of decades, at least, to concerns 
about capability for a coup. At this point, that is not a 
concern in Nigeria.
    Another concern, which my colleagues can also speak to, is 
that the Nigerian military has the same challenges with 
corruption that every other institution in Nigeria does. Much 
of the funding that goes to the Nigerian military is skimmed 
off the top, if you will.
    Senator Flake. Assistant Administrator Gast, reports have 
been around for a while about kidnappings and whatnot in the 
north. Let me just read from one report. ``For much of the past 
year, Boko Haram's fighters have stalked the rugged hills of 
northeastern Nigeria, forcing teenage boys into their trucks as 
recruits and snatching teenage girls as sex slaves,'' said 
Nigerian officials and analysts. ``Villages and small towns in 
the northeast are dotted with parents who have not seen their 
children in months.''
    How aware has the State Department been of this activity? 
And should we have been more aware of the events that might 
have told us that a kidnapping of this kind was coming?
    Mr. Gast. So, from AID's perspective--and I will let Deputy 
Assistant Secretary Jackson address it from State--yes, we are 
very aware. Access is an issue. And so, the programmatic 
response that we are able to deliver is less than it would be 
if we had access.
    We do work with local organizations, and there are some 
very, very good local organizations that can help provide 
psychosocial services to families and to individuals, that can 
help promote dialogue between communities. Unfortunately, the 
capacity of them to expand and go into more areas and reach 
more deeply into pockets of society is somewhat limited.
    Senator Flake. AID usually learns of these things just 
because of the programs that you do with the local population 
there. Mr. Jackson, can you speak from State's perspective? How 
aware were we of these kind of kidnappings and this activity 
going on long before the school kidnapping?
    Ambassador Jackson. Senator, we have been very aware. And, 
as Ambassador to Cameroon for the last 3 years, I was witness 
to the kidnappings of French citizens there, starting early 
last year, and then that has expanded. We have just had a third 
kidnapping earlier this year.
    The kidnappings are part of this larger strategy of terror. 
And consistent with what the Lord's Resistance Army has done in 
Uganda, if I may venture it, I think they are actually copying 
the LRA's tactics, in some respects, which is why it is useful 
to have people from our military who are familiar with the 
LRA's tactics, in an attempt to apply that in Nigeria.
    Senator Flake. Thank you.
    My time is up.
    Senator Coons. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you, to 
you and Ranking Member Flake, for holding the hearing today.
    As I think we would all agree, this kidnapping of these 
young girls in Nigeria is horrible, it is outrageous. We all 
are in sympathy with their families and the community that they 
came from. And it is been interesting to me to see the outcry 
around the world as the result of these kidnappings. And I 
think it, sadly, reminds us that there are too many girls and 
women around the world who are threatened, who are--for young 
girls who are just trying to get an education and better 
themselves, they are victims of violence. Too many children are 
given as child brides. Too many women are kidnapped and sold 
into slavery or sex trafficking. And we have got to do a better 
job, not only in the United States, but in the world, in 
combating these crimes.
    And I know, this week, the International Violence Against 
Women Act was filed again. I am certainly hopeful that the full 
committee will take up this legislation and pass it, because we 
can either allow women to continue to be victims of violence 
and ignorance and repression or we can act on behalf of our 
wives, our daughters, our granddaughters and make a change in 
the world that will benefit everyone.
    I wonder--and I am not sure who to direct this question 
to-- 
I understand that there have been a number of offers of 
assistance to Nigeria--from France, from Britain; I understand 
that Israel and China have also offered to help. Can someone 
describe the extent to which those offers are being taken up 
and how the coordination is happening?
    Ambassador Jackson. Senator, I would be happy to take that 
question. In fact, we have a fusion cell, as we call it, in 
Abuja, the Nigerian capital, where the British, the French, the 
Americans, and the Nigerians are working together to develop 
the information that we have been able to gather through our 
various activities. We are also in touch with the Israelis and 
the Chinese, to a much lesser extent, but we are talking with 
them, to find out what is being provided. And I spoke with our 
team leader, just before coming to this hearing. He is very 
satisfied with the cooperation, and he is looking forward to 
expanding it this weekend, when the regional leaders meet in 
Paris.
    Senator Shaheen. And are there any Muslim countries that 
have offered assistance?
    Ambassador Jackson. A number of Muslim countries have 
spoken out, and certainly Niger, which is predominantly Muslim, 
has offered its assistance to its neighbor, Nigeria, as has 
Chad.
    Senator Shaheen. And when you say there are a number that 
have spoken out, have spoken out to condemn what has happened?
    Ambassador Jackson. Absolutely. And the message that all 
the Muslim leaders who have spoken out--whether religious 
leaders or political leaders, have passed is that this is not 
about Islam. And I think that is a very important point. Boko 
Haram's philosophy is not an Islamic philosophy.
    Senator Shaheen. I agree, and I am glad that you made that 
point. Clearly, we need to make sure that Islam is not confused 
with some of these horrible terrorist acts that have been and 
continue to be perpetrated by terrorist groups.
    Mr. Gast, can I ask you to elaborate a little bit on the 
question that Senator Coons posed about what we are doing to 
help address women and girls in Nigeria, where two-thirds of 
women in northern Nigeria receive no education, only 1 out of 
20 women has a high school education, and where half of 
Nigerian women are reportedly married at age 15? Can you talk 
to what more we can do to address the circumstances there and 
cooperate with those organizations in Nigeria who share the 
values of trying to support getting an education for women?
    Mr. Gast. Senator, I'd be pleased to take your question.
    If one were to look at the development indicators between 
the north and south, it is almost looking at two different 
countries. And that is one of the reasons why we are targeting 
a lot of our assistance in health. In fact, 60 percent of that 
which is not related to the HIV/AIDS epidemic is targeted 
toward the north--the northwest as well as the northeast--and 
for education, as well, because we know that education access 
for AIDS are very low, and, in fact, in comparison with the 
rest of the continent, also near the bottom. And part of the 
problem is that educators themselves do not meet standards--
less than 50 percent of the teachers in the north do not meet 
the federal standards.
    So, we are helping the ministry with teachers' training, we 
are also helping with access to education.
    The problem is--there are many problems, impediments along 
the way. One is security. And we do not want to do harm, we do 
not want to--in a very insecure environment, where we know Boko 
Haram is operating and where they are targeting girls, we do 
not want to encourage girls to go to schools. So, we are 
looking at alternative ways--at-home education, radio 
education, things of that sort.
    We are also very focused, and we are supporting the 
government's program of saving 1 million lives, which is 
targeted toward maternal mortality and child mortality. And 
again----
    Senator Shaheen. That is great.
    Mr. Gast [continuing]. Both of those programs are in the 
north.
    Senator Shaheen. And I guess--this is probably for Mr. 
Jackson--do you expect, or do we expect, either State or DOD to 
request additional funding to help with the situation in 
Nigeria?
    Ambassador Jackson. Senator, that is an excellent question. 

I think we will have to see how the operation evolves and how 
quickly we are able to develop good intelligence, based on our 
overflights. And we will get back to you.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Shaheen.
    Before I turn to Senator Rubio, I just want to remind all 
of us, we have a scheduled 11:15 vote. We have a second witness 
waiting to participate, live from Nigeria. And we will do what 
questions we can of her after hearing her opening statement.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you all for being here today and for your attention 
to this horrifying crime that has been committed.
    Ambassador Jackson, from your testimony, from much of the 
media reporting on this, the perception is being created--and I 
wanted to ask you--is the prime motivator here of this 
instance, in your opinion--is the prime motivator the desire to 
deny young women access to education and empowerment?
    Ambassador Jackson. Senator, I actually think the prime 
motivator is to raise more funds for Boko Haram through a 
ransom. However, the fact that Boko Haram opposes Western 
education is certainly a reason why these girls were targeted.
    Senator Rubio. Well, can I suggest that I think there is 
another motivation that is not getting nearly enough attention? 
And that is that this is clearly motivated by an anti-Christian 
attitude of this group.
    And I want to read you the comments from the leader of Boko 
Haram. I am sure you are aware of it, because the whole world 
has seen it. It is a grotesque statement. But, it is--
basically, it concludes by saying, ``To the people of the 
world, everybody should know his status. It is either you are 
with Mujahideen or you are with the Christians. We know what is 
happening in this world. It is a jihad war against Christians 
and Christianity. It is a war against Western education, 
democracy, and constitution. We have not started. Next time, we 
are going inside Abuja. We are going to a refinery and town of 
Christians. Do you know me? I have no problem with Jonathan. 
This is what I know in Quran, this is a war against Christians 
and democracy and their constitution. Allah says we should 
finish them when we get them.''
    I do not think there is any doubt about what is motivating 
them, or one of their leading motivators here is--this is not 
simply--and I am--there is no doubt that this is a part of it, 
but this is not just about girls going to school, and it is not 
just about raising money. There is a strong anti-Christian 
element of this organization and of this activity. Am I right 
in saying that?
    Ambassador Jackson. Senator, there is a strong anti-
Christian element, but I would offer that more of the thousands 
of people who have died as a result of Boko Haram's activities 
are Muslim than Christian.
    Senator Rubio. Well, again, I mean, I think when you commit 
these horrifying atrocities, you are going to target numerous 
people. But, from the very statement that he said, we should 
not ignore the fact that there is a religious-persecution 
aspect of this that is very significant and deserves attention, 
especially in light of what we are seeing, not just in this 
part of the world, but multiple areas of the world, where we 
are seeing horrifying instances of religious persecution 
against Christians, which, in my opinion, has been 
underreported.
    So, would you agree that this is one such instance in which 
anti-Christian motivations are a strong component of what 
drives this organization to target--for example, my 
understanding is, according to one pastor, a Nigerian 
evangelist, most of the 200-plus schoolgirls kidnapped are 
Christians. Is that--so, clearly, anti-Christianity is a strong 
motivator in this effort.
    Ambassador Jackson. Senator, I respectfully suggest that, 
while anti-Christian sentiment is a strong motivator, the fact 
of the matter is that Boko Haram is trying to portray its 
philosophy as being a Muslim philosophy. And that is just not 
accurate. What both----
    Senator Rubio. I have not said it is a Muslim philosophy, 
but obviously it is a radical philosophy dressed up in a 
perversion of the tenets of a faith they claim to be adherents 
to.
    I am not claiming that this is somehow driven by legitimate 
teachings of Islam. What I am arguing is that there is a strong 
anti-Christian element to this, and that it is part of a 
broader anti-Christian persecution that we are seeing 
repeatedly throughout the world. Would you disagree with that 
statement?
    Ambassador Jackson. I do not disagree, but I continue to 
want to emphasize that Boko Haram terrorizes all people.
    Senator Rubio. Okay. And I do not think that is in dispute. 
I guess my question is, just from the very statement that I 
have read here to you today, clearly he has featured 
Christianity as a key component that motivates who they are 
targeting and why they are targeting them.
    Ambassador Jackson. They are. But, if I may take the 
example of the schoolgirls, about 85 percent of the girls who 
were kidnapped were Christian, the other 15 percent were 
Muslim, but they are all hostages.
    Senator Rubio. Well, I just do not--okay, I do not--I think 
that we would stipulate that there are non-Christians that are 
being impacted by this, and it is horrifying just as well. A 
crime against Muslims is no less worse or less bad than a crime 
against Christians.
    What I am trying to put aside--what I am trying to put 
forward here is that we cannot continue to ignore that 
persecution of Christians is a leading motivator, not just of 
what is happening in Boko Haram, but in other parts of the 
world, as well, but, in this specific instance, they are 
clearly motivated by anti-Christian attitudes and anti-
Christian beliefs. And I do not think that is even debatable, 
given their very own statement.
    Here is my other question. In your opinion, in hindsight--
and I know that hindsight's 20/20--was it a mistake not to 
designate this organization as a terrorist organization 
earlier?
    Ambassador Jackson. Senator, as I explained, I think we had 
a healthy debate. We are respectful of the Nigerian attitude 
toward Boko Haram and the fact that they feared that 
designating the organization would bring it more publicity. In 
retrospect, we might have done it earlier. I think the 
important thing is that we have done it and that we have 
offered a reward for the leadership of Boko Haram's location.
    Senator Rubio. I would just--for future reference, do you 
think there is a lesson here that, when we make decisions about 
designating groups as terrorists, they should not simply be--
either you are a terrorist group or you are not, and that 
perhaps, in the future, we should not so heavily rely upon some 
government's input with regards to whether an organization that 
happens to be operating within their territory should be 
designated, or not? Is there any lessons there for the future?
    Ambassador Jackson. I think, Senator, that there is 
definitely a lesson here, and I think that we will be quicker 
to act to make designations based on our own assessments 
earlier on, based on this----
    Senator Rubio. Okay. And my last question has to do with a 
broader theme with regards to the risk of global jihadists and 
terrorism at large. There was a narrative not long ago--and I 
do not want to get into the politics of it--but, there was a 
narrative not long ago that al-Qaeda was on the run, that it 
was dissipating, but, in fact, what--a new risk has emerged, 
and this--want to rely, here, on the testimony of Director 
Clapper before the Senate Committee on Intelligence, of which I 
sit, where he said, ``The decentralization of al-Qaeda movement 
has led to the emergence of new power centers and an increase 
in threats by networks of like-minded extremists with 
allegiances to multiple groups,'' of which it is clear that 
AQIM, which is the--there appears to be some links or ties, at 
least with some elements of Boko Haram and Al Qaeda in the 
Islamic Maghreb.
    So, my question is, What do we know, at this point, about 
that? Do we have any indications, at this stage, that you could 
reveal in a setting of this type, that, in fact, this is a 
group whose aspirations potentially involve attacks outside of 
Nigerian territory against Western interests either elsewhere 
in Africa or potentially in Europe and the Western world? What 
do we know about that at this stage?
    Ambassador Jackson. We have definitely determined that 
there are links between al-Qaeda and the Islamic Maghreb and 
Boko Haram. They have probably provided at least training, 
perhaps financial support. But, more importantly, to the second 
part of your question, Boko Haram has become a regional threat. 
It has kidnapped a French family in Cameroon, it has most 
recently kidnapped a Canadian priest--a Canadian nun and two 
Italian priests, and it kidnapped a French priest, several 
months ago, who was liberated. This is an organization that is 
becoming an international threat and needs to be dealt with 
through international cooperation.
    Senator Rubio. I just have a 15-second followup, Mr. 
Chairman.
    Is it fair to begin to hold this--is it fair to hold this 
group up as yet another example of what Secretary Clapper was--
Dr. Clapper was talking about, when he said that the 
decentralization of 
al-Qaeda and the emergence of these different groups in 
different regions poses the new face of the al-Qaeda threat in 
the 21st century? This group is just one more example of those 
types of groups that are popping up in different parts of the 
world that pose a different challenge in nature from the al-
Qaeda we confronted during the 9/11 period.
    Ambassador Jackson. Senator, yes.
    Senator Rubio. Thank you.
    Senator Coons. Thank you, Senator Rubio.
    Chairman Menendez has returned. Do you have a question for 
this panel?
    The Chairman. I do, Mr. Chairman, thank you very much. I 
was in a Banking markup, but appreciate the opportunity.
    Let me ask you, Mr. Secretary. It is my understanding that 
Nigeria has not been cooperative with us in our efforts to 
designate Boko Haram as a terrorist group at the United 
Nations. Is that the case?
    Ambassador Jackson. Until very recently, they were very 
reluctant to designate them at the United Nations. However, 
this week their Permanent Representative did consult with the 
Security Council about designation, and I expect that will 
happen imminently.
    The Chairman. Okay. So, we finally got them to see the 
light now. It is a shame that it took the abduction of 300 
girls to get them to understand that they should have joined us 
at the United Nations.
    But, you said ``consulted.'' Does that mean that we are 
headed toward a designation? They are going to support us in 
our designation at the United Nations?
    Ambassador Jackson. Yes, Senator, we have been informed 
that they will work with us and other members of the Security 
Council to designate Boko Haram----
    The Chairman. Good.
    Ambassador Jackson [continuing]. By the United Nations.
    The Chairman. Well, that is a good development.
    Now, we all want--even though the delay, I fear, may cause 
challenges to getting each and every one of these girls back, 
but that is our goal, and that is why I sent a letter to 
President Jonathan, calling on him to demonstrate leadership. 
But, what is your level of confidence that the Nigerian 
Government, after an indefensible delay, now has the political 
will and the military capacity to ensure a swift and effective 
response that utilizes international support to the fullest, 
and is in line with human rights standards?
    Ambassador Jackson. Senator, if I may, I will answer the 
political-will department and defer to my colleague for the 
Defense piece.
    The Chairman. That is fine.
    Ambassador Jackson. We do believe that the political will 
now exists. President Jonathan is seized with the issue. In 
fact, I just learned, this morning, that he is on his way to 
Chibok to visit the school and meet with the families of the 
kidnapped girls.
    Ms. Friend. Mr. Senator, if I may. After the social media 
campaign was underway in earnest, we found, in our engagements 
with the Nigerian military in particular, an unprecedented 
level of access and frankness with them. So, our impression 
from the Department of Defense is that they are quite 
certainly, for the first time in recent memory, taking this 
threat very seriously and engaging with us very seriously.
    The Chairman. Well, what is their capacity? Because I see 
that we are spending a significant amount of money engaging 
them, in terms of creating capacity. I also see what happened 
at the school, and the notice they had and the lack of 
response. So, the question is, what is their capacity? Even if 
I accept that President Jonathan is now, because of 
international outrage, willing to do something, if we were to 
share, at some point, intelligence, assuming we had it and came 
upon it and could have actionable intelligence, what is their 
capacity to execute such an effort?
    Ms. Friend. Senator, it is hard for me to answer that 
question right now, because we do not know what kind of 
situation we are facing, we cannot isolate particular courses 
of military action that might be appropriate for a rescue of 
the girls, because we do not know where they are.
    There are two answers to your question. One is their 
capacity overall to handle the threat from Boko Haram, to take 
defensive measures, as you alluded to, at the school. There was 
also a recent prison-break equivalent at the Giwa barracks, I 
believe in March, that was virtually undefended by the Nigerian 
military. Again, as I spoke of earlier, the Nigerian military 
in the north has significant capacity challenges.
    Our aim right now is to support them as much as possible, 
to get them training and assistance, where possible, and 
again----
    The Chairman. Well, here is my problem, Ms.----
    Ms. Friend [continuing]. We have an unprecedented level----
    The Chairman. Here is my problem, Ms. Friend.
    Ms. Friend [continuing]. Of cooperation.
    The Chairman. We are going to support them as much as 
possible. But, if we found actionable intelligence that 
identified where a large part, or all, of the girls are, and we 
do not believe, or we do not know, if they have the capacity to 
act on it, what good will that be?
    Ms. Friend. I cannot speculate on that, Senator. I do not 
want to give you speculative information. I do not----
    The Chairman. Well----
    Ms. Friend [continuing]. Know what kind of----
    The Chairman [continuing]. That is a problem.
    Ms. Friend [continuing]. Actionable information that might 
be.
    The Chairman. I need you to go back to the Department and 
bring back to the committee a better answer than that.
    Ms. Friend. I would be happy to, sir.
    The Chairman. Because it is impossible to fathom that we 
might actually have actionable intelligence and that we would 
not have the wherewithal, either by the Nigerians themselves, 
or by other entities helping the Nigerians, to be able to 
conduct a rescue mission. And so, all of this would be 
worthless unless we know the Nigerians are capable of 
executing, or, in the absence of their ability to execute, that 
we have some other way to be able to effectuate an effective 
rescue.
    So, I would like for you to go back to the Department, at 
whatever level is necessary, to give the committee a better 
answer than that, because, otherwise, some of us will question 
all of our efforts if they cannot be executed upon.
    Ms. Friend. Sir, as we gather more information with the 
Nigerians, we would be happy to come back and talk to you about 
that.
    The Chairman. Well, I would like, yes, from the Nigerians, 
but I want to know our own assessment. I want to have the 
Department of Defense's assessment as to what would be the 
capacity of the Nigerian military and/or security to effectuate 
a rescue mission, assuming that that opportunity unveils 
itself. We are not going to wait until finding out that we have 
actionable intelligence and then find out we do not have the 
capacity to do this.
    Ms. Friend. I would be happy to come back to you with that 
information, sir.
    The Chairman. Wow.
    Thank you, Mr. Chairman.
    Senator Coons. Chairman Menendez, any further questions?
    We are trying to work out the logistics of a vote that is 
about to be called, and a second-panel witness. Senator Cardin 
has questions for this panel. At the forbearance of the 
witnesses, I am going to invite Senator Cardin to question this 
panel. Senator Flake and I are going to go to the floor, cast 
our votes, and come promptly back, and Senator Cardin will 
transition to the introduction of our witness if we are not 
back within 7 minutes, which I suspect we will be.
    Senator Cardin. And I do not expect to take 7 minutes, so I 
will keep it moving.
    Senator Coons. We will move as quickly as we can.
    Senator Cardin [presiding]. Right. I understand the 
challenges. As I think the chairman has pointed out, the floor 
has a series of votes starting at 11:15, so I will do my best 
to keep things moving along.
    This is a matter of urgency globally, as I think has been 
expressed here. These Nigerian girls were not in the wrong 
place at the wrong time, they were in the right place at the 
right time. And what happened there is just beyond description.
    So, this is not a U.S. interest, this is a global 
humanitarian interest. The United States has certain unique 
capabilities, and the international community has certain 
capabilities. We are not yet clear as to the capacity of the 
Nigerian Government to act. We do believe that the 
international focus on this issue has given greater strength to 
the Nigerian Government to take the appropriate steps to ensure 
the safe return of the girls.
    So, I was listening to the comments of my colleagues, and I 
know it is frustrating when we know how long these girls have 
been held captive. So, I guess my only observation, not so much 
as a question, is that this is not about what we read in the 
paper, this is about getting the girls back safely. This is not 
about the United States or the United States being visible or 
invisible. It is about getting the girls home safely. And we 
want to do everything we possibly can in that regard.
    There is also the issue, generally in Nigeria, of how they 
handle opposition, how they handle the stability in their own 
country, which is of concern to the United States. And what I 
think most of us are concerned about is that we do not want the 
safety of these girls confused with the outrageous terrorist 
acts and we do not want to give these actors any legitimacy 
whatsoever. And I think that is a point that, again, it is not 
just U.S. interests, but it is a matter of global humanitarian 
interest. So, this is that balance that we are seeking. How can 
we be constructive and how can we be forceful in helping bring 
back these girls safely?
    And I thank you all for your testimonies today. And we know 
these are difficult, anxious moments. But, we want to be as 
constructive as we possibly can. We want to be very clear about 
the outrageous conduct of terrorists that go beyond the pale of 
anything any of us can imagine and that we recognize that this 
is a global matter that the Nigerians must handle, but they 
should seek help from the international community, and we are 
ready to assist.
    Thank you all very much.
    I would now invite up Ms. Lantana Abdullahi. I assume I 
mispronounced that.

  STATEMENT OF LANTANA ABDULLAHI, PROJECT MANAGER, SEARCH FOR 
                  COMMON GROUND, JOS, NIGERIA

    Ms. Abdullahi [via videocast from Nigeria]. Hello. Members 
of the Senate. Ladies and gentlemen, good morning. Hello?
    Senator Cardin. We hear you fine. Can you hear us?
    Ms. Abdullahi. Oh, good. Members of the Senate--Ladies and 
gentlemen, good morning. Chairman Coons, Ranking Member Flake, 
members of the committee, thank you for convening this 
important and timely meeting and for giving me the opportunity 
to speak today.
    I thank other witnesses today--Honorable Mr. Jackson, 
Honorable Mr. Gast, and Ms. Friend--for their all testimonies. 
I thank all of you for your leadership, commitment, and efforts 
to help Nigerians respond to the growing crisis in our country.
    My name is Lantana Abdullahi, and I work on country 
transformation and violence prevention with Search for Common 
Ground in Nigeria. The testimony that follows reflects my own 
views and informed by my experiences first as a mother with 
five children, as a Nigerian, and as a peace-builder.
    I will begin by briefly speaking how on the events that 
have brought us here today, the causes of the current crisis, 
and offer some practical recommendations.
    You will all recall that today marks the 30th day that is 
over 200 Christian and Muslim girls were abducted from a school 
in Chibok, north Nigeria. Of course this means a whole 
generation is apparently at risk. This is only one of many 
attacks which Boko Haram has claimed responsibility.
    The group was created in 2002 with the sole purpose of 
imposing a version of Islamic law throughout Nigeria. So far, 
the attacks have claimed more than 2,000 people, to date, and 
displaced tens of thousands of people, and more than 10 million 
people are currently at risk if you combine the population of 
Adamawa, Yobe, and Borno states.
    And, in addition to one of the comments made about the goal 
of Boko Haram, about their anti-Christianity stance, I want to 
say that, of course, it is a ploy to pit Christians and Muslims 
against each other, and, of course, also seek, sympathy among 
some Muslims.
    This abduction just serves as a reminder, a sad reminder, 
of the longstanding challenges at play in Nigeria that may also 
produce a negative impact throughout the greater region. 
Currently, the lack of information on the current level of 
response from the government and armed forces is a great source 
of worry for many Nigerians. Nigerians are also very much 
frustrated by the history and current level of corruption in 
the government, associated, of course, with bad governance and 
impunity.
    Boko Haram argues that corruption is the result of 
democracy, a Western import that has failed. This description 
resonates well with marginalized groups if you look at their 
recruitment efforts and rife.
    Northern Nigeria, as we all know, has been historically 
disadvantaged, in comparison to the south--to the more 
developed south. Boko Haram took advantage of this to make 
inroads with local population by offering food, shelter, and 
free Quranic education. We must also acknowledge the porous 
nature of our borders near Borno, Yobe, and Adamawa states, 
where violence has originated and allowed Boko Haram to traffic 
victims as well as escape prosecution by seeking refuge abroad.
    We have all been deeply touched by the attention--of the 
girls' kidnapping--that has been received, but I think there is 
still a need for more to be done to end this crisis. Affected 
citizens have on-the-ground response. While securing the girls' 
release will be a short-term gain, ensuring lasting peace in 
the region requires the militancy issue to be addressed from 
multiple angles with engagement of all stakeholders to prevent 
future atrocities.
    Despite the recent escalation of Boko Haram violent 
actions, there are a few reasons to be hopeful. First, we have 
witnessed a decrease in reprisal attacks, especially coming 
from regions like the north central Nigeria, and in particular, 
plateau state, Jos, where I come from.
    During earlier periods of the insurgency, victims appealed 
to their own communities to gain retribution. More recently, we 
have seen more and more Christians and Muslims working 
together, as seen by the #BringBackOurGirls movement, and 
driven, as was seen, of course, by Nigerians.
    In the past, there has been poor international 
coordination. However, the global attention generated by the 
abduction of these girls and the World Economic Forum for 
Africa, hosted in Nigeria, have created an opportunity for the 
United States and other foreign technical assistance.
    With this in mind, I will want to make the following 
recommendations. There is an urgent need for humanitarian 
assistance and support to prevent further marginalization of 
the populations who are at risk of being recruited into 
militancy. There is also urgent need for trauma counseling and 
psychosocial support to victims of violence in northeast 
Nigeria.
    Other recommendations support an original approach. Like 
all other witnesses have said, there is a need to have a 
regional collaboration between Nigeria and its neighbors, 
particularly Niger Republic, Cameroon, and Chad. Securing the 
borders will limit terrorist activities and prevent the spread 
of militancy. We need also to support a robust community-
focused approach to improving human security. How do we ensure 
communities are also engaged in this? We also need to prevent 
and monitor human rights abuses by security forces. More 
importantly, we know that the level of presence of military and 
armed forces in most conflict locations have also increased the 
level of violations of human rights of citizens. We need to 
consolidate the gains in peace-building effort throughout 
Nigeria.
    Inasmuch as we want to concentrate on the current crisis in 
the northeast region particularly on the Boko Haram terrorist 
activities, we should not also forget the issues in the Niger 
Delta, the middle--and, of course, the upcoming general 
elections.
    I would like to close with a personal story. Three years 
ago, I was at a wedding in Maiduguri, Boko Haram's place of 
birth. As soon as I arrived, I heard multiple explosions, 
serving as a painful reminder of the violence affecting the 
residents. Their ability to move freely was heavily restricted. 
Even during joyous celebrations, they were constantly made 
aware of the lack of security. Yet, it also warmed my heart to 
see how resilient my family were, as well as their friends and 
neighbors. Despite the terror, women still went to the market, 
and children courageously still attended school. My visit to 
Maiduguri strengthened my commitment as a peace-builder to 
ensure that all Nigerians, both Christians and Muslims, can 
work together and live free of fear.
    I tell you this story to remind you that my experience is 
not unique. Millions of other people throughout northeastern 
Nigeria and, indeed, Nigeria are affected by this violence. I 
hope my testimony today represents them all.
    I also want to thank the U.S. Senate for this opportunity 
to speak and for showing interest to support us to overcome 
these challenges. In particular, I also wish to appreciate and 
thank the American people for joining the global movement to 
#BringBackOurGirls and end terrorism. We must continue in this 
spirit until the war is won.
    Thank you, and I await your questions.
    [The prepared statement of Ms. Abdullahi follows:]

                Prepared Statement of Lantana Adbullahi

    Members of the Senate, ladies, and gentlemen, good morning. 
Chairman Coons, Ranking Member Flake, members of the committee, I would 
like to begin by thanking you for convening this important and timely 
meeting, and for giving me the opportunity to speak today on this 
crisis. I also thank the Honorable Mr. Jackson, Hon. Ms. Gast, and Ms. 
Friend for their testimonies today. I thank all of you for your 
leadership, commitment, and efforts to help Nigerians respond to the 
growing crisis in our country.
    My name is Lantana Abdullahi and I work on conflict transformation 
and violence prevention with Search for Common Ground in Nigeria. Since 
2004, we have been developing innovative media and community projects 
that encourage mutual understanding across ethnic, religious, and 
gender lines. I recently led a project to empower Muslim and Christian 
girls from northern Nigeria and promote them as peace-builders, and 
currently work with communities, women, youth, and civil society groups 
to prevent violence and promote peace. The testimony that follows 
reflects my own views, which are informed by my experiences as a 
mother, a Nigerian, as well as a peace-builder.
    I will begin by speaking briefly on the events that have brought us 
together today, some of the causes of the current crisis, and conclude 
with some practical actions that can be taken in order to respond to 
the immediate crisis and bring about long-term solutions.
                      the current state of affairs
    On April 14, 2014, the Islamist militant group Boko Haram abducted 
more than 200 girls from a school in Chibok, a town in northeastern 
Nigeria. While the identity of the girls is still being confirmed, the 
abductees included both Muslim and Christian girls. This abduction was 
just one of the latest attacks for which the militant group Boko Haram 
has claimed responsibility. The group began its insurgency in 2009, 
with the aim of imposing its own version of Islamic law throughout 
Nigeria. In the past 5 years, the group has targeted the United Nations 
headquarters in Abuja, churches, the police, markets, and schools 
throughout northeastern Nigeria, and has regularly engaged in bloody 
combat with the Nigerian military and police forces. These attacks have 
led to over 3,000 deaths--(World Report 2013: Nigeria)--a state of 
emergency declaration in May 2013 in three northeastern states, and the 
displacement of tens of thousands of my fellow citizens. In all, Boko 
Haram's actions have affected more than 10 million people. It risks 
becoming a regional crisis, and placing serious strains on Nigeria's 
relations with neighboring Niger, Cameroon, and Chad.
                         underlying challenges
    The abduction of the Chibok school girls last month is a sad 
escalation of the terror the Nigerian people have witnessed since 2009. 
This crisis comes as a result of four long-running challenges that not 
only affect the northeastern parts of the country, but have the 
possibility to produce widespread impact across all of Nigeria and in 
the neighboring countries.
    The first challenge is that of corruption and lack of confidence in 
government in Nigeria. Many Nigerians are frustrated, and feel that 
there is a high degree of corruption in the country. Boko Haram argues 
that corruption is the result of democracy and Western influences. 
According to this argument, democracy is a Western import that has not 
succeeded in Nigeria. Past elections have resulted in violence, and 
militants argue that this contradicts the principles of Islamic sharia 
law--given by God. This has a certain resonance with frustrated, poor, 
and desperate people who perceive a growing gap between rich and poor, 
and suspect that politicians are using their public offices to secure 
private wealth.
    The second challenge is chronic poverty. This is of particular 
concern in northern Nigeria, which is historically disadvantaged with 
regards to the more developed south. The effects of poverty on the 
population are pervasive: without a strong economy or income-generating 
activities, many parents send their children to the only schools 
available. An exclusively Koranic school education without other 
practical training offers limited opportunities for students when they 
graduate--as it leaves out subjects such as mathematics, science, and 
the liberal arts--leaving them unprepared and unable to find adequate 
employment. Thus these youngsters are more susceptible to recruitment 
into violent groups. Additionally, Boko Haram first made in-roads with 
the local population by offering food and shelter, thereby taking 
advantage of people's vulnerability as a result of poverty.
    The third challenge stems from the geographical location of the 
Boko Haram insurgency. Borno, Yobe, and Adamawa states--where this 
violence has originated--are located along Nigeria's border with Niger, 
Chad, and Cameroon. Weak borders and governance in the remote region 
allow for the trafficking of individuals and arms across countries. 
Boko Haram can not only facilitate the trafficking of victims, but it 
can also escape persecution and seek refuge in neighboring countries 
when the situation becomes too precarious for them in Nigeria.
    Finally, these challenges go hand in hand with the lack of a strong 
civil society and media presence. In recent years, many different local 
and international organizations have been moving to the region but have 
yet to deliver a strong impact. Media programs and outlets continue to 
have limited reach compared to the rest of the country, and citizens 
have few opportunities to make their voices heard on national issues. 
Consequently, the local population does not trust available news 
sources, leaving no suitable outlets for popular expression.
Key Opportunities and Recommendations
    I have been deeply touched by the attention the tragedy of the 
Chibok Girls' kidnapping has garnered both in Nigeria and in the world. 
Their kidnapping comes after a long wave of killings, kidnappings, and 
abuses, and underscores the need for new approaches to the crisis. Thus 
far, citizens living in the most-affected areas have seen little on-
the-ground response to the crisis apart from the current offensive 
undertaken by security forces. Yet despite these operations, the 
insurgency persists, and human rights groups have presented grave 
reports of extremely serious abuses committed by the security actors. 
While securing the girls' release will be a short-term gain, ensuring 
lasting peace in the region requires the militancy issue be addressed 
from multiple angles. It also requires the engagement of all 
stakeholders--communities, civil society, government, and its 
international partners--to ensure context-specific and sustainable 
solutions to improve human security, peace-building, and the prevention 
of future atrocities.
    While the violent actions perpetrated by Boko Haram have increased 
in scale, quantity, frequency, there are a few reasons to be hopeful.
    First, we have witnessed a decrease in reprisal violence within 
affected communities. During earlier periods of the insurgency, victims 
of violence appealed to their own communities, often divided along 
religious and ethnic lines, in order to attain justice or retribution. 
Recently we have seen more and more Christians and Muslims working 
together, supporting one another, and recognizing the need to unite to 
prevent violence. With the #Bringbackourgirls campaign, we have also 
seen a more concerted effort by Nigerians across the country to 
recognize the tragic consequences of the conflict in the northeast.
    Secondly, in the past, there has been poor coordination with the 
international community, as well as with neighboring countries. 
However, the global attention generated by the abductions of the girls 
and the campaign by CSOs, as well as the World Economic Forum for 
Africa hosted in Nigeria, have created an opportunity for foreign 
technical assistance from the U.S., UK, and France.
    These two changes present an opportunity for the U.S. Government to 
support Nigerians as they try to respond to this crisis.
    The challenges and opportunities call for a running engagement and 
specific actions to face longstanding problems. With this in mind, I 
make the recommendation for practical courses of action.

    The first set is focused on addressing the human consequences of 
the current crisis in three key ways:
    a. There is an immediate need for trauma healing and psychosocial 
support to victims of violence in northeast Nigeria. The psychological 
legacies of violence will create long-term scars, both for these girls, 
as well as the thousands of their fellow citizens who have lost loved 
ones, experienced abuses, lost their homes, and otherwise suffered as a 
result of the violence.
    b. There is an urgent need for humanitarian support. Tens of 
thousands of people have fled in fear, becoming refugees in neighboring 
countries and fleeing to other parts of Nigeria. In some places the 
influx of refugees has overtaxed local water and food supplies, 
overcrowded schools and clinics, and competes with locals for economic 
opportunities. There is a need to ensure the protection of women and 
children fleeing the violence, to ensure they are not exposed to sexual 
exploitation. There is a need to work with the displaced people to 
ensure that in their desperation, they do not themselves become 
recruited into militancy and violence.
    c. Finally, there is need to begin planning for early recovery. The 
Nigerian Government and its international partners should begin working 
with local communities to begin planning for how to rebuild from the 
devastation, including repairing infrastructure and homes that have 
been destroyed, creating economic livelihoods opportunities, and 
implementing emergency programs, such as catchup education programs for 
those whose schooling has been disrupted by war.

    Even while addressing its consequences, the international community 
can also undertake specific steps to help bring the crisis to an end in 
four ways:
    a. Support a regional approach to prevent the Boko Haram militancy 
from becoming a broader crisis. There needs to be regional 
collaboration to work with border communities and governments to 
improve security along the borders between Nigeria, Niger, Cameroon, 
and Chad. The porous borders between these countries have facilitated 
human trafficking, arms and drug trade, and the movement of 
mercenaries. Securing the borders will limit terrorist activities and 
prevent the spread of militancy. The regional collaboration should not 
be limited to the formal security forces, but can involve local 
leaders, civil society, media, and governments in all four countries to 
recognize a shared interest in more secure and productive communities, 
with a particular focus on youth. Actions can include strategic 
livelihoods programming, community empowerment, and supporting 
pluralistic platforms for dialogue on diversity and tolerance through 
the media sector.
    b. Allocate adequate funding to support a robust community-focused 
approach to improving human security in northeastern Nigeria. The U.S. 
strategy to support northeastern Nigeria should focus on empowering 
women, youth, local leaders and religious groups within the conflict-
affected areas of the northeast. Building cohesive, empowered, and 
resilient local communities will help reduce the risk of recruitment, 
create alternative ways for local residents to raise their concerns to 
government officials, and help reduce the risk of recruitment of young 
people. Such an approach should also include civil society capacity-
building and media engagement to document security conditions and 
monitor allegations of human rights abuses.
    c. Work with civil society, religious and local leaders, Nigerian 
authorities, the security forces and the National Human Rights 
Commission to prevent and mon- 
itor human rights abuses. This includes providing support platform 
building to strengthen relationships between civil society groups and 
the NHRC to prevent abuses in the north. Operations have been marked by 
reports of grave human rights abuses, and ensuring that there is a 
transparent process for addressing these grievances, agreed upon by all 
stakeholders, will prevent the allegations of abuses from becoming new 
grievances.
    d. Consolidate the gains in peace-building throughout Nigeria. 
Alongside the crisis in the northeast, Nigeria is facing a series of 
other violent conflicts in the Niger Delta, as well as in the Middle 
Belt. Additionally, the nation will be looking forward to elections 
next year. Even as we focus on resolving the crisis in the northeast, 
it is critical that sufficient funds should be allocated to continue to 
support the consolidation of peace in the Niger Delta, interfaith peace 
efforts in the Middle Belt, and support the electoral process.
                               conclusion
    I would like to close with a personal story. Three years ago, I was 
in Maiduguri. As soon as I arrived, I was shocked to hear explosions 
all around us, serving as a painful reminder of the violence that my 
relatives, friends, and fellow citizens are subjected to on a regular 
basis. Witnessing the routine violation of my relatives' rights and 
liberty particularly saddened me. Their ability to move freely was 
heavily restricted--even during joyous celebrations they were 
constantly made aware of their lack of freedom. Yet it also warmed my 
heart of see how resilient my family was, as well as their friends, 
neighbors, and communities. Despite the terror, women still went to the 
market. Children courageously still attended school. My fellow 
Nigerians were going about their lives in spite of the violence that 
surrounded them.
    My visit to Maiduguri strengthened my commitment to work as a 
peace-builder in Nigeria, to ensure that all Nigerians, both Christians 
and Muslims, can work together and live free of fear. I am reminded 
today that my experience is not unique and millions of people 
throughout northeastern Nigeria are affected by violence and gross 
violations of their individual rights and freedoms.
    Thank you once again for giving this opportunity and for your 
interest in supporting us to overcome the challenges facing our 
country.

    Senator Coons [presiding]. Thank you very much for your 
testimony, Lantana Abdullahi. We are grateful for you joining 
us today.
    You have experienced so much as someone from the north and 
as an advocate for peace-building. How has Boko Haram impacted 
your life, the community around you in the north? And what 
message would you like to send to the perpetrators of these 
vicious attacks?
    Ms. Abdullahi. I think I want to talk, first, as a Muslim. 
I want to say the activities of Boko Haram has actually 
affected almost all Muslims, you know, in Nigeria, because we 
have been left to actually start, you know, talking about 
defending our faith and, you know, educating and sensitizing 
people that Boko Haram do not actually represent Islam and do 
not represent the interests of Muslims in Nigeria.
    And, of course, coming from where we are, we are dealing 
with other conflicts in other locations, like the north-central 
region, where we are dealing more with issues of ethnic and 
religious conflicts. You know, Boko Haram has also taken 
advantage of that to also try to, you know, perpetrate some of 
the terrorist activities, you know, in some of these locations, 
and it has taken, you know, a lot of, you know, our efforts to 
make sure we localize the context and not allow Boko Haram to 
actually hijack the process and the work we are doing in 
Nigeria.
    Senator Coons. Thank you.
    As you know, many Americans have taken to the Internet to 
express their outrage with Boko Haram and their support for 
safely returning--for bringing back the girls. And today's 
hearing is an expression, in part, of American concern and 
solidarity and commitment to support the families and the 
girls. What message do you have for us, for the U.S. Government 
and the American people, as we consider what more we could do 
to support peace and security in Nigeria?
    Ms. Abdullahi. I think, very importantly, we want to 
acknowledge the American people and government for coming to 
our rescue at this moment. We know of the military cooperation 
currently going on between America and Nigerian Government. 
Even though, of course, the support of the--from Nigerian 
Government for such support is coming late, but we still 
believe that the time is now to actually act.
    And, in particular, we also need to look at other 
nonmilitary support from the American Government, particularly 
when we are looking at other community-driven, peace-building 
strategies and approach to also consolidate on the post-
abduction stage. We need to do that to rebuild the communities, 
but, more importantly, we need to acknowledge that the 
northeast region is the one of the most backward, you know, 
regions in Nigeria. There is, you know, a weak media presence, 
there is weak civil society presence, and this means that we 
need to actually push to empowered communities to speak their 
voice, not to allow some people or institutions to speak for 
them. So, that is why we are pushing to see how we can have 
community-level, you know, -driven radio stations, even though, 
at this moment, there is actually no license. The government is 
not issuing such license. But, we think that the time has come 
to have community radios to work with young girls and to work 
with also women and youth.
    Senator Coons. Well, thank you for those comments.
    If you could tell us what other initiatives, in addition to 
the radio conversation, that your organization, the 
organization for which you work, Search for Common Ground, has 
taken. And, as a peace-builder, Lantana, what are the most 
important steps you have taken to encourage reconciliation and 
dialogue amongst the communities in the north? What are the 
most positive steps you have seen so far? And what 
recommendations do you have for us about how we can best 
support peace-building efforts in the north?
    Ms. Abdullahi. As you know, Search for Common Ground is an 
organization that is very innovative. It meets peace-building 
efforts around the world. And that innovation and uniqueness is 
what we have brought to deal with conflicts in many parts of 
Nigeria. Currently, we are working basically more in the middle 
belt region, trying to bring, you know, ethnic groups together 
to look at their common grounds values, and to work on their 
differences. We are also, of course, supporting the federal 
government to work on the militancy problem and stability in 
the Niger delta region. We have been supporting communities to 
sit and, you know, dialogue over their differences using their 
own local initiatives. We have also been empowering them with 
skills and knowledge, particularly on conflict transformation, 
to be able to deal with those issues constructively.
    Senator Coons. Thank you, Lantana.
    I am going to yield to Senator Flake so that he also has an 
opportunity to ask questions before we must return for our next 
vote.
    Thank you so much for your testimony today.
    Senator Flake.
    Senator Flake. Well, thank you. And I am sorry if I am 
asking questions that have already been answered.
    But, with regard to the government's response to what is 
going on in the north, have there been any initiatives by the 
government that have been effective in diminishing the 
attractiveness of Boko Haram for recruiting or for their 
activities? Is the government winning this battle, or not, at 
this point?
    Ms. Abdullahi. Of course, it is obvious that if young--you 
know, over 200 young girls can actually be abducted right, you 
know, in the presence of the Nigerian Government, and remain 
missing for 30 days, it means that we have lost it somewhere. 
It is obvious that there is still some lack of capacity to 
actually deal with the problem we are currently facing. It also 
seems that, since the advent of the Boko Haram in 2002, the 
government were not actually prepared to actually deal with the 
issue. And, of course, they have, for us, most Nigerians, there 
have been many analysts, many arguments, about, you know, the 
position of government on using just, you know, the military 
offensive to deal with the Boko Haram in suggest the--instead 
of, you know, trying to address some of the root causes, you 
know, that brought about the advent of Boko Haram in the first 
instance.
    Of course, recently, we have had some announcements by the 
government about, you know, some grants to northeast region to 
try to provide some sustainable and livelihoods--you know, 
address some of the livelihood and concerns of the region, to 
address the widespread poverty and the low educational level 
and political, you know, marginalization of that region. But, 
of course, we have also not seen anything happening in regard 
to the money that was meant for that.
    Senator Flake. One other question. I think we were struck, 
here, and the international community was struck, at how slow 
the Nigerian Government reacted to these kidnappings. Does that 
suggest that they simply are not ready and willing to address 
the issues, whether they are the root causes or more immediate 
concerns? And are they only acting because the international 
community is putting pressure on them now?
    Ms. Abdullahi. Yes, I think that they were slow, of course, 
you know, responding to the crisis. And, of course, we also 
have to acknowledge the role played by Nigerians. They have 
been daily, you know, coming out to actually push and, you 
know, talk about the current, you know, crisis.
    Of course, we also have to acknowledge that there have been 
many, you know, push by the international community to come in 
and support, but the government were very skeptical, they were 
very, you know, slow in accepting those offers. But, I think 
Nigerians have actually pushed for that, and we have seen it, 
you know, happening now, and we hope that, apart from just 
wanting to have the girls released, we also want, beyond, you 
know, the abduction, to address, you know, those root causes.
    Senator Flake. All right. Thank you. I will turn it back to 
the chairman. Thank you for your participation. We really 
appreciate you doing this.
    Ms. Abdullahi. Thank you so much.
    Senator Coons. So, Ms. Abdullahi, if you have any closing 
comments you would like to make to us--we have to go back to 
the Senate floor in just a moment for another vote. I know it 
was a little disjointed, between Senator Cardin, Senator Flake, 
and myself. If there is any closing comments you have for us, 
suggestions about how we can most be helpful in supporting 
reconciliation and development in the north that will address 
some of the root causes of the Boko Haram insurgency or that 
can address some of the root causes of violence and of 
difficulties between communities, I would welcome that. And if 
you have any other suggestions for how we can best support the 
Nigerian schoolgirls who have been kidnapped and their 
families, we would welcome that, as well.
    Thank you so much for your testimony. We look forward to a 
closing comment from you.
    Ms. Abdullahi. Thank you so much for the opportunity to 
actually talk today. And, of course, like I said, we need a lot 
of support. There is currently weak presence of the civil 
society on ground to actually support the current crisis in the 
region, so we want the U.S. Senate to push to see how we can 
have more of the civil actions going on right now in the region 
by, you know, sorting out the humanitarian issues immediately, 
but also looking out to plan long-term interventions, working 
with youth groups, women groups, and young girls to promote 
civilian protection and also promote human rights respect by 
armed forces and also on a community-driven approach.
    Senator Coons. Thank you so much. Thank you for your focus 
on peace-building, on respecting human rights, and on 
reconciliation. We are grateful----
    Ms. Abdullahi. Thank you.
    Senator Coons [continuing]. For the effort that you made to 
testify before us today.
    I will leave the record open for an additional week, until 
the close of business, Thursday, May 22, for any members of 
this committee who were not able to attend but who have 
questions either for our first or second panel.
    We greatly appreciate the testimony that was offered today 
by all four of our witnesses and the very hard work that many 
are doing here in the Capitol of the United States to provide 
support and assistance to the Nigerian schoolgirls and their 
families, to the people of Nigeria, and to all who are working 
for peace and reconciliation in Nigeria.
    Thank you. And, with that, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


        Responses of Ambassador Robert P. Jackson to Questions 
               Submitted by Senator Christopher A. Coons

    Question. Human Rights Violations.--To what degree has Nigeria's 
poor track record with regard to human rights limited bilateral 
cooperation with the military and police? What steps has the Nigerian 
Government taken to address this issue. Specifically, how have Leahy 
restrictions on U.S. security assistance limited assistance offered to 
Nigeria's police and military in the past, and what are the current 
plans for providing military and police support moving forward?

    Answer. The military's heavy-handed approach to combating Boko 
Haram and the resulting gross violations of human rights have prevented 
the United States from assisting some units. Nevertheless, despite 
these challenges, we continue to work with eligible units to help the 
Nigerian Government to locate and liberate the kidnapped school girls, 
and to combat Boko Haram. In 2013, we vetted and approved 1,108 
individuals and units from the Nigerian security forces that were 
nominated to receive training, equipment, and other forms of 
assistance. There are currently 187 Nigerian military units and 173 
Nigerian police units that have been Leahy vetted and approved, and are 
cleared to receive U.S. assistance and training, including soldiers 
from Nigeria's elite Special Boat Service (SBS) commando unit, the 
101st and 143rd counterterrorism units.
    We help the Nigerian Government professionalize its military and 
security services, improve its ability to participate in peacekeeping 
operations and conduct maritime security to improve its 
counterimprovised explosive device (IED) capacity, and carry-out 
responsible and effective counterterrorism (CT) operations. We also 
provide law enforcement assistance, including by training Nigerian law 
enforcement officials on CT investigations, border security, counter 
IED and post-blast investigations, tactical operations, and crisis 
management. All of this assistance is part of a coordinated effort to 
help strengthen Nigeria's ability to respond responsibly and 
effectively to their security challenges in a way that ensures 
civilians are protected, human rights are respected, and violators are 
held accountable in accordance with the Leahy law and our foreign 
policy objectives.
    We have referenced the Leahy law in engaging with senior-level 
Nigerian officials, in our efforts to encourage the Nigerian Government 
to adopt a smarter approach to fighting Boko Haram and to 
professionalize their forces. These efforts have led to difficult but 
productive discussions on the damage that human rights violations can 
do to counterinsurgency and counterterrorism efforts, and the 
importance of accountability for those responsible. We have seen some 
signs of progress, like President Jonathan's February 24 order to 
include more human rights training for officers, but we expect more as 
we continue to engage Nigerians on these challenging issues while also 
providing assistance in critical areas in accordance with our laws and 
policies.
    Under the Leahy laws, and consistent with U.S. policy to seek 
rights-respecting security partners, we do not provide assistance, 
including training, to security force units when we have credible 
information that they have committed gross violations of human rights, 
including extrajudicial killings, enforced disappearance, rape, and 
torture, unless the host government is taking effective steps to bring 
those responsible to justice. Even if the Leahy Law did not exist, we 
recognize that such abuses undermine the fight against Boko Haram by 
alienating the civilians that the Nigerian military and security 
services should be protecting, and whose allegiance the Nigerian 
Federal Government needs to defeat the terrorists.
    The U.S. decision to provide assistance to any military, security, 
or law enforcement unit is driven both by overall policy considerations 
as well as the Leahy laws. We continue to urge the Nigerian Government 
to adopt a comprehensive counterterrorism strategy that includes action 
both to hold the perpetrators of human violations accountable and to 
curtail further human rights abuses by security forces. Such actions by 
the Nigerian Government will also allow us to deepen our partnership 
with the Nigerian Government in its fight against Boko Haram.

    Question. Police.--You mentioned in your testimony that you are 
providing law enforcement basic forensics, hostage negotiations, 
leadership, and task force development. When did this assistance begin? 
It does not appear that International Narcotics Control and Law 
Enforcement (INCLE) funds were requested for Nigeria in FY13, FY14, or 
FY15. Given the important role played by the police in civilian 
protection, why hasn't U.S. police assistance been prioritized for 
Nigeria, and what police assistance is planned moving forward?

    Answer. Since 2012, the Department has provided law enforcement and 
rule of law INCLE-funded assistance to Nigeria under the West Africa 
Cooperative Security Initiative (WACSI), a whole-of-government effort 
to increase global security by addressing transnational organized crime 
in West Africa. WACSI receives International Narcotics Control and Law 
Enforcement (INCLE) funds under the State Africa Regional account 
(funded in the West Africa Regional Security Initiative Program line), 
rather than a bilateral INCLE funding line for Nigeria.
    In recent discussions with INL, high-level Nigerian Police Force 
officials expressed willingness to engage on institutional reform at 
their training academies. Future INL programming will focus on building 
the long-term institutional capacity of the police to perform their 
duties, while meeting international standards and human rights norms. 
As part of this effort, INL plans to initiate a Police Training 
Modernization project at Nigerian police academies in late 2014 and a 
regional project to facilitate community and police dialogues utilizing 
Trans-Sahara Counterterrorism Partnership (TSCTP) funding allocated for 
police reform in Nigeria.
                                 ______
                                 

        Responses of Ambassador Robert P. Jackson to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. While there is strong civil society and interreligious 
commitments to peace-building elsewhere in Nigeria, there has been 
little on-the-ground response to the crisis in northeastern Nigeria 
apart from the security forces.
    A security-only approach has led to both an out-of-control 
insurgency and atrocious human rights abuses, and as we've seen time 
and again across the Middle East and North Africa, including in Mali, 
will not successfully counter violent extremism. And yet, since the 
global public outrage on the abduction of the school girls, the 
administration has focused disproportionately on security assistance to 
the Government of Nigeria.

  <diamond> How are we supporting local civil society organizations, 
        including local and international interreligious and peace-
        building organizations, to ensure a balanced, well-rounded 
        approach to protect civilians from and prevent the further 
        emboldening of Boko Haram?
  <diamond> What are some of the major underlying grievances among 
        civilian populations in northern Nigeria and what can the U.S. 
        do to help address these challenges?
  <diamond> How have issues related to resource-scarcity and climate-
        impacted communities throughout Nigeria and particularly in the 
        north?

    Answer. The administration continues to press the Nigerian 
Government to implement a comprehensive approach to combating violent 
extremism and insecurity in northeastern Nigeria that addresses the 
underlying causes of the conflict and grievances of northern 
populations while concomitantly emphasizing civilian protection, 
respect for human rights, the rule of law, and accountable security 
forces.
    Operating in the poorest part of Nigeria, Boko Haram exploits the 
northern population's legitimate grievances to garner recruits and 
support. Heavily reliant on subsistence agriculture, the Northeast 
already faces issues of resource scarcity and climate change. However, 
the population's most serious grievances include lack of employment, 
infrastructure, sanitation, health care, education, and political 
marginalization. Corruption, patronage networks, and weak institutions 
have resulted in the systemic poor performance of the Federal, State, 
and local governments to meet basic citizen needs. These unfulfilled 
demands are exacerbated when resources allocated to address these 
issues are misappropriated, also impeding development and investment. 
Heavy-handed tactics by security forces against the civilian population 
has tended further compound the alienation from the government of 
people living in northeast Nigeria.
    We are taking a number of steps to help alleviate these grievances:

  <bullet> We are working with the Nigerian Government to more 
        effectively engage communities vulnerable to extremist violence 
        and promote practices among its security forces that protect 
        civilians, respect human rights, and do not further alienate 
        already aggrieved communities.
  <bullet> The U.S. Embassy supports local religious leaders who reach 
        across sectarian lines and promote human rights, social 
        justice, and conflict resolution. USAID has conducted conflict 
        mitigation and management interventions to lessen sectarian and 
        intercommunal tensions and to increase interfaith civic 
        engagement and tolerance among flashpoint communities.
  <bullet> USAID is helping to strengthen education management systems; 
        improve the reading skills of 5.5 million northern Nigerian 
        primary school students; improve the quality of education for 
        teachers to teach reading, and increase access of orphans and 
        vulnerable children, including itinerant Qur'anic youth 
        (Almajiri), and girls, to basic education. These programs focus 
        on the northern states of Bauchi and Sokoto.
  <bullet> USAID is supporting economic growth and poverty alleviation 
        by improving agricultural productivity and expanding jobs in 
        the rural sector through the Feed the Future initiative.
  <bullet> Through President Obama's ``Power Africa'' initiative, the 
        United States will continue to partner with Nigeria to ensure 
        that the Nigerian people have greater access to electricity.
  <bullet> In the health sector in northern Nigeria, USAID supports 
        increased access to quality family planning, immunization, and 
        maternal health services. USAID also supports efforts to 
        decrease the number of malaria-related deaths in pregnant women 
        and children by increasing access to treatment, insecticide-
        treated bed nets, and retreatment kits. USAID provides HIV/AIDs 
        prevention, care, and treatment services as well as services to 
        orphans and vulnerable children.
  <bullet> We are working with civil society to advance transparent and 
        accountable governance. In 2013, the State Department launched 
        a 2-year pilot program to build the capacity of civil society 
        (including media) to increase citizens' access to government-
        held information.
  <bullet> USAID works with state and local governments to improve 
        budget preparation and fiscal oversight to ensure adequate 
        service delivery. Working with a diverse group of civil society 
        organizations, USAID strengthens their ability to advocate and 
        engage with government officials to deliver quality social 
        services.
  <bullet> The Department also is running a project in Nigeria to 
        educate civil society, extractive industry leaders, and 
        government officials about human rights and promote the 
        incorporation of the Voluntary Principles on Security and Human 
        Rights, which apply to the extractive sector.
  <bullet> In the runup to Nigeria's February 2015 elections, the 
        United States is reinforcing the electoral process through 
        support to the Independent National Electoral Commission (INEC) 
        and political parties. We also continue to stress our concerns 
        to INEC and the Nigerian Government that any suspension of 
        democratic or electoral processes in northeastern Nigeria could 
        undermine the integrity of the elections.
  <bullet> USAID also facilitates dialogue among government 
        institutions, civil society, political parties, faith-based 
        organizations, and other stakeholders to prevent, manage, and 
        mitigate the impact of conflict, including election-related 
        conflict.

    All these initiatives are part of a coordinated effort to help 
strengthen Nigeria's ability to respond responsibly and effectively to 
these challenges in a way that ensures civilians are protected and 
human rights are respected.

    Question. According to the State Department, corruption in Nigeria 
is ``massive, widespread and pervasive.''

  <diamond> How have allegations of corruption and lack of transparency 
        affected civilians views of the Nigerian Government?
  <diamond> Has this led to distrust and/or animosity?
  <diamond> How does this corruption impact our relationship with the 
        Nigerian Government?

    Answer. Pervasive corruption remains a central impediment to 
effective governance, economic development and stability in Nigeria. 
Public demands for meaningful reforms and an end to impunity for 
corrupt officials have grown over the past year, to include an ongoing 
campaign to pressure President Jonathan to publically declare his 
personal assets. Nigerians consistently view their public institutions 
as corrupt and cite the police and national government officials as the 
most corrupt. This perception fuels public distrust in government 
institutions. For example, reliable polling conducted in 2013 
illustrated that 85 percent of Nigerians believe there is at least a 
fair amount of corruption among the police and as a result only 23 
percent of the public trust the police. The Nigerian military is not 
immune to the Nigeria's broader corruption challenges, and corruption 
within the military erodes the effectiveness of security forces engaged 
in combating Boko Haram.
    To reduce the culture of impunity for those who engage in 
corruption, we support Nigerian anticorruption agencies, such as the 
Economic and Financial Crimes Commission, to develop the capacity to 
investigate and prosecute cases relating to high-level corruption or 
financial crime. We are also working with civil society to advance 
transparent and accountable governance. In 2013, the State Department 
launched a 2-year pilot program that will build the capacity of civil 
society (including media) to work with government agencies to fight 
corruption and transnational organized crime by leveraging citizens' 
access to government-held information. We also continue to promote 
anticorruption and human rights norms through engagement with high-
level officials from the Nigerian Police Force on the subject of 
restarting bilateral police training. In 2006 we had to end trainings 
after the former Inspector General of Police was convicted of stealing 
$83 million from the Police Force.

    Question. Amnesty International has reported that thousands of 
people suspected of links to Boko Haram have been extrajudicially 
executed or unlawfully killed by security forces, and thousands of 
suspects have died in military or police custody.

  <diamond> How have these abuses fueled the conflict and how do they 
        constrain our ability to help the Nigerian Government respond 
        to this crisis?

    Answer. Boko Haram has carried out a brutal campaign of terror that 
has killed over 1,500 innocent civilians since the beginning of the 
year. It has attacked churches, mosques and schools, burned villages, 
killed political official and security officers, and kidnapped innocent 
children. Unfortunately, the Nigerian security forces have responded to 
this brutality with their own heavy-handed tactics. These tactics have 
involved human rights violations that include extrajudicial killings 
and prisoner deaths. The continued lack of accountability for these 
violations has reinforced preexisting perceptions of many northerners 
that the Nigerian Government does not care about them. This situation 
can compromise the credibility of those international partners who 
attempt to help the Government of Nigeria address the legitimate need 
to combat violent extremism if the partners are perceived as condoning 
or overlooking the heavy-handed tactics of the Nigerian security 
forces. In turn, criminal terrorist groups such as Boko Haram use these 
circumstances to exploit the grievances of the northern population to 
garner recruits and public support.
    Consequently, the United States continues to encourage the 
Government of Nigeria to implement a comprehensive approach to 
combating Boko Haram that addresses the underlying causes of the 
conflict and grievances of northern populations while at the same time 
emphasizing civilian protection, respect for human rights, the rule of 
law, and accountable security forces. Defeating Boko Haram requires 
much more than a military response; it also requires coordination among 
civilian law enforcement entities, civic and political outreach, and 
development that addresses the legitimate concerns of the people of 
northern Nigeria.
                                 ______
                                 

  Response of Earl Gast and Ambassador Robert P. Jackson to Question 
                Submitted by Senator Benjamin L. Cardin

    Question. There are girls in Nigeria and around the world risking 
their lives every day to get an education--it is time for the 
administration to stand behind them in the long term. Under Goal 3 of 
the Education Strategy, USAID has pledged to expand access to education 
for children and youth living in conflict and crisis situations. 
Currently there are more than 57 million primary school-aged children 
who are not in school worldwide and half of them live in countries 
affected by armed conflict.

  <diamond> Will the U.S. step up its leadership role by significantly 
        increasing support for the Global Partnership for Education 
        (GPE) replenishment conference in June?
  <diamond> What steps can the U.S. take to promote better and safer 
        access to education in Nigeria, particularly in the North?

    Answer. USAID will participate in the GPE replenishment conference 
at the end of June. USAID is currently in the process of planning its 
budget for the release of FY 2014 funds, and the U.S. contribution to 
the GPE is part of that budget strategy. While we anticipate that the 
FY 2014 contribution to the GPE will increase, final determinations on 
FY 2014 allocations have not yet been made. We would be happy to follow 
up with you and/or your staff once the amount in FY 2014 allocations 
are finalized.
    USAID currently focuses the vast majority of education program 
resources for Nigeria in the northern region of the country, where 
national education indicators are the lowest. USAID is coordinating 
education activities in northern Nigeria with the United Kingdom's 
Department for International Development (DFID), to ensure the maximum 
impact and geographical coverage. Additionally, USAID is developing a 
new program that will specifically address equitable access to quality 
education in the areas that are affected by conflict and safety 
concerns. Last, it is important to note that USAID has some education 
related programs that are not in the north. These programs support 
nationwide household and schooling data collection and a national 
children's television program.
                                 ______
                                 

          Responses of Ambassador Robert Jackson to Questions 
                  Submitted by Senator Robert Menendez

    Question. Human Rights Abuses by Nigerian Military.--Despite 
Nigeria's strategic importance as Africa's most populous nation and 
largest economy, our security assistance has historically been 
constrained by human rights abuses committed by Nigerian soldiers in 
their campaign against Boko Haram. These have been well documented in, 
for example, the State Department's 2013 Human Rights Report.

  <diamond> How are we working with the government to correct this 
        troubling record in order to ensure that the Nigerian people 
        have a military they can trust and that the international 
        community has a stable security partner moving forward? What 
        accountability measures are we pushing the Nigerian Government 
        to implement?

    Answer. The United States has been very open about our concerns 
about Nigeria's human rights record. We continue to encourage the 
Government of Nigeria to implement a comprehensive approach to 
combating Boko Haram that addresses the underlying causes of conflict 
and valid grievances of northern populations while emphasizing civilian 
protection, respect for human rights, rule of law, and accountability 
of security forces. We ensure that promoting respect for human rights 
is a key aspect of any assistance we provide to Nigerian security 
forces.
    We have urged the Government of Nigeria to work with the families 
of victims and their communities in order to bring to justice not only 
those responsible for acts of terrorism, but also Nigerian security 
officials responsible for unlawful violence and abuses against civilian 
populations, including detainees. Impartial accountability for serious 
crimes committed by all sides is necessary to break the cycle of 
violence. We continue to push the Government of Nigeria to take steps 
to ensure accountability for security forces by conducting credible 
investigations and prosecuting the individuals responsible.

    Question. U.S. Efforts to Address the Boko Haram Threat.--I hope 
this is the last time we have a conversation about such a horrific 
event at the hands of Boko Haram, but, realistically, it probably won't 
be. The chaos and brutality perpetrated by Boko Haram is not isolated 
to this incident and is increasing.

  <diamond> Does the changing nature of the threat put U.S. interests 
        at additional risk?
  <diamond> Of our significant bilateral assistance (some $700 
        million), a relatively small portion (an estimated $10-20 
        million) is devoted to counterterrorism efforts--is this 
        adequate?

    Answer. To date, Boko Haram has not specifically targeted U.S. 
citizens in its attacks. However, in his public statements Boko Haram's 
leader, Abubakar Shekau, has threatened to attack U.S. interests, and 
we remain concerned about the growing threat to our interests in the 
region as Boko Haram expands the geographic scope of its operations. 
The U.S. mission in Nigeria monitors closely any such threats to 
official and private American citizens and their interests, and 
provides guidance accordingly.
    The administration continues to encourage the Nigerian Government 
to implement a comprehensive approach toward combating violent 
extremism and insecurity in northeastern Nigeria, which stresses 
addressing legitimate grievances of northern populations. As a result, 
the majority of our bilateral assistance focuses on the Nigerian 
population's most serious grievances. These include unemployment, 
infrastructure, sanitation, health care, education, political 
marginalization, and corruption.
    Additionally, Nigeria benefits from centrally managed assistance 
through programs such as the Trans Sahara Counterterrorism Partnership 
(TSCTP) and the West Africa Regional Security Initiative (WARSI), which 
are not reflected in the country's bilateral funding levels.
    Our current levels of security assistance devoted to counter 
terrorism in Nigeria are appropriate, contingent upon the Nigerian 
Government's ability to absorb the assistance, emphasize civilian 
protection, respect human rights and the rule of law, and develop 
accountable security forces.

    Question. Support to Civil Society.--A security-centric approach 
has led to an out-of-control insurgency and repeated human rights 
abuses in the Middle East, Mali, and elsewhere. And yet, since the 
abductions, the international community has been primarily focused on 
security assistance to the Nigerian Government.

  <diamond> How is the United States supporting local civil society 
        organizations, including local and international interreligious 
        and peace-building organizations, to ensure a balanced, well-
        rounded approach to protect civilians and prevent Boko Haram 
        from becoming even more emboldened?

    Answer. The U.S. Embassy supports local religious leaders who reach 
across sectarian lines and promote human rights, social justice, and 
conflict resolution. USAID has conducted conflict mitigation and 
management interventions to lessen sectarian and intercommunal tensions 
and to increase interfaith civic engagement and tolerance among 
flashpoint communities.
    In May 2014, the U.S. Special Envoy to the Organization of Islamic 
Cooperation (OIC) held a series of video conferences with leading 
Nigerian Islamic leaders representing a wide range of Muslim 
communities in Nigeria to discuss strategies for countering Boko 
Haram's narrative. USAID is also providing training to religious and 
traditional leaders to help increase stability in Nigeria by enhancing 
the legitimacy and capacity of governance structures to defend 
religious freedom.
    USAID is helping to strengthen education management systems; 
improve the reading skills of 5.5 million northern Nigerian primary 
school students; improve the quality of education for teachers to teach 
reading, and increase access of orphans and vulnerable children, 
including itinerant Qur'anic youth (Almajiri), and girls, to basic 
education. These programs focus on the northern states of Bauchi and 
Sokoto.
    The United States is working with civil society to advance 
transparent and accountable governance. In 2013, the State Department 
launched a 2-year pilot program to build the capacity of civil society 
(including media) to increase citizens' access to government-held 
information. The State Department also is running a project in Nigeria 
to educate civil society, extractive industry leaders, and government 
officials about human rights and promote the incorporation of the 
Voluntary Principles on Security and Human Rights, which apply to the 
extractive sector. Through a pilot program in the Niger Delta, the 
State Department is working with civil society organizations to enhance 
nonviolent problem-solving between communities and government through a 
multimedia campaign and targeted assistance. The engagement counters 
the narrative that violence is the only effective means to create 
change. USAID also works with civil society to strengthen its ability 
to influence the development and implementation of key democratic 
reforms at national, state, and local levels.
    The Embassy in Abuja is about to launch a portfolio of activities 
totaling $1.7 million targeting northern, at-risk youth. These projects 
will be implemented through the public affairs and political sections, 
and will build upon a new multiyear Hausa language satellite television 
initiative (Arewa 24) and ongoing VOA radio programming. These youth-
oriented projects will transmit information on job skills as well as 
entrepreneurial and employment opportunities, and will address concepts 
of cultural tolerance and communication. The Embassy is working through 
local NGOs to address the scourge of children pressed into street 
begging. Our efforts support ongoing local stakeholder efforts to stamp 
out these abuses that too often result in children (the so-called ``al-
majiri'') being vulnerable to recruitment into violent gangs and 
networks as they get older, including Boko Haram.
    All these initiatives are part of a coordinated effort to 
strengthen Nigeria's ability to respond responsibly and effectively to 
these challenges in a way that ensures civilians are protected and 
human rights are respected.
                                 ______
                                 

          Responses of Ambassador Robert Jackson to Questions 
                    Submitted by Senator Bob Corker

    Question. 1. The administration has provided numerous assessments 
of Boko Haram's threat as limited to Nigeria and an occasional regional 
outreach as was seen recently in its involvement in Mali and ongoing 
safe haven and sporadic violence in neighboring Niger, Chad, and 
Cameroon. Nonetheless, internally it has become more sophisticated and 
lethal with over 1,500 Nigerians killed since the first of the year, 
hundreds of children and others abducted for ransom and trafficking, 
and the recent threat to western hotels in Abuja.

  <diamond> Even though Boko Haram's place in the global threat matrix 
        might appear less relevant to the U.S. given its limited reach 
        beyond Nigeria, should the United States take a more strategic 
        approach to limiting its further influence in the face of this 
        mounting capacity to destabilize a large regional power?
  <diamond> Given the Nigerian Government's lack of capacity and 
        political willingness to engage Boko Haram and its own 
        reluctance to effectively cooperate with international 
        partners, what have we learned that would improve the U.S. 
        pursuit of its interests in the region?
  <diamond> What practical limitations exist to U.S. cooperation with 
        Nigeria?
  <diamond> Please provide the waivers and exceptions to legal 
        limitations that are permitted and how they are determined to 
        be utilized.
  <diamond> Have any waivers or exceptions been utilized as it relates 
        to security cooperation with Nigeria? Have any waivers or 
        exceptions been utilized as it relates to security cooperation 
        with any countries in Africa?

    Answer. The United States continues to reiterate privately and 
publically to Nigeria that we will do all we can to support the 
Nigerian Government to meet its responsibility for the safety and 
security of its own citizens. We are urging the Nigerian Government to 
ensure that it brings all resources to bear in a concerted, effective, 
and responsible effort to ensure the safe return of the abductees. The 
United States continues to encourage the Government of Nigeria to 
implement a comprehensive approach to combating Boko Haram, which 
addresses grievances of northern populations, and emphasizes civilian 
protection, respect for human rights, the rule of law, and the 
accountability of security forces. The United States has been open 
about our concerns regarding Nigeria's human rights record. We must 
ensure that promoting respect for human rights remains a key aspect of 
any assistance we provide to Nigerian security forces. Unless action is 
taken to severely reduce Boko Haram's capabilities, it will carry out 
more atrocities. At a minimum, we must work with Nigeria's neighbors 
and partners to prevent Boko Haram from continuing to threaten peace 
and security in the region.
    On Leahy restrictions, the Department understands that the only 
possibility of resuming assistance to a unit once credible allegations 
of a gross violation of human rights are identified is for the host 
government to take effective steps to bring the responsible parties to 
justice. The Leahy law affecting the Department of State does not 
include any ability to waive Leahy restrictions. The Leahy law 
affecting the Department of Defense includes certain waiver provisions; 
we would refer you to the Department of Defense for more information.
    We have not yet exercised any waivers or exceptions in fiscal year 
2014 for Nigeria related to security cooperation under State Department 
authorities, nor have we determined yet that the immediate 
circumstances would warrant such action.
    Assistance to other countries in Africa is subject to a number of 
restrictions; these restrictions include both country-specific 
restrictions as well as restrictions triggered by a failure to meet 
certain statutory standards. Fiscal year waivers for the latter 
category include the following:

  <bullet> The Department applied restrictions under the Trafficking 
        Victims Protection Act (TVPA) in fiscal year 2014 to the 
        Central African Republic (CAR), Democratic Republic of the 
        Congo (DRC), Equatorial Guinea, Eritrea, Guinea Bissau, 
        Mauritania, Sudan, and Zimbabwe. Full waivers of these 
        restrictions were granted to CAR, Guinea-Bissau, and 
        Mauritania, while partial waivers were granted to the others. 
        The restrictions were not waived for Equatorial Guinea, 
        Eritrea, or Zimbabwe.
  <bullet> The Department applied restrictions under the Child Soldier 
        Protection Act (CSPA) in fiscal year 2014 to CAR, Chad, DRC, 
        Rwanda, Somalia, South Sudan, and Sudan. Full waivers of these 
        restrictions were granted to Chad and South Sudan. Partial 
        waivers of restrictions on security assistance were granted to 
        DRC and Somalia. No waivers were granted to CAR, Rwanda or 
        Sudan.

    Question. Direct cooperation on security with Nigeria and its 
neighbors encompasses a variety of programs and sources but little 
clarity on the coherence across or even within U.S. agencies. Testimony 
provided at the hearing intimated at a fairly robust cooperation in CT 
which appears less than apparent from funding and program reviews.

  <diamond> Provide information on the broader U.S. security 
        cooperation with Nigeria since 2009 and outline more recent 
        changes and the funding sources that will be utilized, to 
        include training or equipping, mentoring, technical assistance 
        or other program that provides for:

      <all>  Intelligence sharing;
      <all>  Training to a new unit known as the 143rd Ranger 
            Battalion;
      <all>  Training to the 101st CT battalion and the 111th Special 
            Operations Group;
      <all>  C-IED training and civ-mil training;
      <all>  Nigerian Army Special Operations Command (NASOC);
      <all>  And remaining GSCF funding or its replacement.

  <diamond> Incorporate regional training and equipping programming and 
        plans into the above strategic approach to helping Nigeria and 
        the broader region counter militant extremists, including to 
        provide training to the Multi-National Joint Task Force (Chad, 
        Cameroon, Niger, and Nigeria).
  <diamond> What if any additional outcomes emerged from the summit of 
        heads of state that was convened by President Hollande in 
        France on May 17 regarding the region.

    Answer. The Department of State uses bilateral and regional funding 
from the following foreign assistance accounts to advance U.S. security 
cooperation with Nigeria: (1) Foreign Military Financing (FMF); (2) 
International Military Education and Training (IMET); (3) Peacekeeping 
Operations (PKO); (4) International Narcotics Control and Law 
Enforcement (INCLE); and (5) Nonproliferation, Antiterrorism, Demining 
and Related Programs (NADR).
    Since 2009, Nigeria has received FMF, IMET, and/or PKO funding for 
enhancing capabilities for counterterrorism, peacekeeping, maritime 
security, and/or professionalism. Nigeria has also consistently 
received INCLE and NADR funding to strengthen the professionalism and 
capacity of select law enforcement and judicial entities, with a focus 
on countering terrorism and combating financial crimes. The Department 
of Defense also uses title 10 authorities (e.g., section 1206) to 
enhance cooperation with the Nigerian military.
    In the face of the growing threat posed by Boko Haram, we are 
seeking to increase several lines of security assistance to help 
Nigeria pursue a more comprehensive approach toward the Boko Haram 
threat. For example, we have obligated $4.5 million of FY 2014 PKO 
funding allocated as part of the Trans-Sahara Counterterrorism 
Partnership (TSCTP) to build Nigerian military capabilities for civil-
military operations and countering improvised explosive devices. We are 
also planning to increase FY 2014 NADR funding allocated to TSCTP to 
expand Antiterrorism Assistance (ATA) training for Nigerian law 
enforcement agencies. Separately, we are using prior year FMF funding 
obligated for Nigeria to support U.S. training of Nigeria's 143rd 
Ranger Battalion and possibly other vetted units of the Nigerian 
military.
    In addition to building Nigeria's counterterrorism capabilities, we 
continue to promote enhanced regional cooperation and capacity to 
counter the Boko Haram threat. We are encouraging Cameroon, Chad, 
Niger, and Nigeria to follow through on their commitments to establish 
a regional task force to combat Boko Haram, building on regional 
mechanisms such as the Multinational Joint Task Force for Lake Chad 
(MNJTF). We will seek to support these efforts as much as possible. 
Through TSCTP, we continue to provide a range of bilateral and regional 
assistance to Niger and Chad to enhance their counterterrorism 
capabilities. We added Cameroon as a member of TSCTP earlier this year, 
which will enable its participation in this programming. In addition, 
State and DOD are finalizing a plan for a proposed $40 million program 
to help the governments of Cameroon, Chad, Niger, and Nigeria develop 
institutional and tactical capabilities to enhance joint efforts to 
counter Boko Haram and to lay the groundwork for increased cross-border 
cooperation to counter Boko Haram.
    As a result of the May 17 summit in Paris, Nigeria and its 
neighbors agreed to do the following, with international assistance:

  <bullet> Implement coordinated patrols with the aim of combating Boko 
        Haram and locating the missing school girls;
  <bullet> Establish a system to pool intelligence in order to support 
        this operation;
  <bullet> Establish mechanisms for information exchange on trafficking 
        of weapons and bolster measures to secure weapons stockpiles;
  <bullet> Establish mechanisms for border surveillance;
  <bullet> Establish an intelligence pooling unit; and
  <bullet> Create a dedicated team to identify means of implementation 
        and draw up, during a second phase, a regional counterterrorism 
        strategy.

    Nigeria's neighbors and friends in the international community have 
maintained a strong, united resolve in helping Nigeria and its 
neighbors combat and defeat violent extremism. We are committed to a 
comprehensive, long-term approach, while also working to see the 
kidnapped girls return home safely.

    Question. The continuing challenge for the United States is that 
our efforts will have to be creative and coordinated, not only with a 
partner in Nigeria who is reluctant to do so, but with regional 
neighbors who have much to lose if this violent militancy spreads, as 
reports indicate it can.

  <diamond> What is the state of U.S. cooperation with neighbors in 
        Niger, Chad, and Cameroon and set it against the domestic 
        capacity of these three countries to address the border 
        security threat as well as the respective governments efforts 
        to address internal tensions that may mirror Nigeria's current 
        situation?
  <diamond> How have we utilized the Trans-Sahara Counter-Terrorism 
        Partnership and other Countering Violent Extremism and other CT 
        programs in the region to address the growing Boko Haram threat 
        and how are they to be augmented if at all? What office or 
        vehicle for coordination exists to harmonize such regionally 
        significant programs as CT-CVE?

    Answer. As a result of the May 17 regional summit in Paris, Nigeria 
and its neighbors agreed to do the following, with international 
assistance:

  <bullet> Implement coordinated patrols with the aim of combating Boko 
        Haram and locating the missing school girls;
  <bullet> Establish a system to pool intelligence in order to support 
        this operation;
  <bullet> Establish mechanisms for information exchange on trafficking 
        of weapons and bolster measures to secure weapons stockpiles;
  <bullet> Establish mechanisms for border surveillance;
  <bullet> Establish an intelligence pooling unit; and
  <bullet> Create a dedicated team to identify means of implementation 
        and draw up, during a second phase, a regional counterterrorism 
        strategy.

    With support from the Government of France, Nigeria has recently 
attempted 
to establish border security cooperation agreements with its neighbors 
and to strengthen the Multinational Joint Task Force for Lake Chad 
(MNJTF). However, actual cross-border cooperation remains ad hoc. 
Alongside the French, the United Kingdom, and other international 
partners, we are working to encourage the development of stronger 
regional mechanisms to counter Boko Haram and other cross-border 
threats. We are also developing new programs to assist Nigeria, Niger, 
Chad, and Cameroon to develop enhanced border security capabilities 
(e.g., command-and-control, communications, logistics, and tactical 
reconnaissance). All four countries need significant assistance in 
developing these capabilities.
    Through the Trans-Sahara Counterterrorism Partnership (TSCTP), the 
United States seeks to build the capacity and resilience of military, 
law enforcement, and civilian actors across the Sahel and Maghreb 
regions to counter terrorist groups, including Boko Haram. The State 
Department's Bureau of African Affairs oversees TSCTP and chairs an 
interagency working group to align programs and strategies. Chad, 
Niger, and Nigeria are longstanding TSCTP partners and have benefited 
from various TSCTP's programs. Earlier this year, the United States 
added Cameroon as a TSCTP partner nation, which will enable it to 
participate in future TSCTP programming.
    The Department's Bureau of Counterterrorism oversees a variety of 
programs to help defeat Boko Haram (and Ansaru) under the framework of 
TSCTP. Through the Antiterrorism Assistance (ATA) program, the 
Department trains law enforcement in Nigeria, Chad, Niger, and soon in 
Cameroon, to counter the threat posed by Boko Haram and effectively 
respond to and manage terrorist attacks. ATA training and associated 
equipment grants build the capacity of police, Gendarme, and other law 
enforcement CT-focused units on border security, investigations 
(including post-blast investigations), and critical incident 
management.
    Our Countering Violent Extremism (CVE) programs aim to limit 
recruits to Boko Haram by reducing sympathy and support for its 
operations, through three primary objectives: (1) building resilience 
among communities most at risk of recruitment and radicalization to 
violence; (2) countering Boko Haram narratives and messaging; and (3) 
building the CVE capacity of government and civil society. Such efforts 
include promoting engagement between law enforcement and citizens, and 
elevating the role of women civil society leaders in CVE.
    These efforts include USAID support to promote conflict mitigation 
and reconciliation programs in six Nigerian states. Further, the Public 
Affairs Section at U.S. Embassy in Abuja and USAID work with northern 
Nigerian youth, women through mass media education programs with 
countering violent extremism messaging. USAID and Centers for Disease 
Control (CDC) programs focus on development of health, agricultural, 
and educational programs in nearly all states of Northern Nigeria. The 
Bureau of Counterterrorism and Center for Strategic Counterterrorism 
Communications (CSCC) have developed a strong partnership with the 
Office of the National Security Adviser (ONSA)'s Strategic 
Communications/CVE office and, in conjunction with the United Kingdom, 
provided assistance on developing a comprehensive communications 
strategy.
    USAID's current TSCTP activities include a regional Peace for 
Development (PDEV II) program in Burkina Faso, Niger, and Chad. PDEV II 
is a 5-year $60 million initiative launched in November 2011 that 
applies a holistic, community-led approach. PDEV II covers a large 
number of geographically distant and often culturally, linguistically, 
and socioeconomically diverse communities. Given the immensity of the 
Sahel, interventions are limited to communities with the highest 
violent extremism risk factors, determined through assessments 
conducted by the project. A number of those target communities are in 
areas of both Niger and Chad that border Nigeria. To date, nearly 3.8 
million people from at-risk groups have been reached through various 
USAID PDEV II activities, including youth-led community mobilization 
activities; radio programming; and training in management skills, 
budgeting, leadership, vocational trades, and conflict resolution.
    We also work closely with Nigeria within the Global 
Counterterrorism Forum (GCTF) framework--an informal, multilateral 
counterterrorism (CT) platform that focuses on identifying critical 
civilian CT needs, mobilizing the necessary expertise and resources to 
address such needs and enhance global cooperation. As one of the member 
states of the GCTF, Nigeria has cohosted with us several regional 
workshops focusing on human rights and law enforcement issues. Nigeria 
has also agreed to become a pilot country to the Global Community 
Engagement and Resilience Fund (GCERF), a GCTF-inspired initiative 
announced by Secretary Kerry at the September 2013 GCTF ministerial. 
This will enable community-based organizations in Nigeria to receive 
grants from the GCERF to carry out grassroots CVE projects. 
Furthermore, Nigeria will be one of the founding members of the 
International Institute for Justice and the Rule of Law in Malta, whose 
primary mission will be to train justice and security sector officials 
on how to prevent and respond to terrorist activity and other 
transnational criminal activity within a rule of law framework.
                                 ______
                                 

                  Responses of Earl Gast to Questions 
                  Submitted by Senator Robert Menendez

          humanitarian and development assistance in the north
    I am particularly interested in U.S. efforts in the isolated 
northeast, where there is an ongoing state of emergency and where 
development indicators are especially concerning and have contributed 
to a sense of alienation.

    Question. What specific efforts are underway to support the people 
of Nigeria to overcome key social and economic drivers of instability, 
such as entrenched poverty, corruption, displacement, ethnic and 
religious strife, and poor service delivery?

    Answer. USAID programming in northern Nigeria is designed to help 
the Government of Nigeria (GON) address sources of disenfranchisement 
by improving its ability to promote private-sector-led economic growth 
and provide basic services to its citizens. The USAID portfolio in the 
north is comprehensive, ranging from agriculture to health to education 
to governance. Several large projects are geographically colocated in 
the states of Bauchi and Sokoto--states with heightened developmental 
need--in an effort to maximize developmental impact. It is important to 
note that USAID is currently implementing activities in states adjacent 
to the ``State of Emergency'' states--states which are receiving 
significant numbers of internally displaced persons who place 
additional stress on already weak social service provision. Expansion 
of USAID programming into State of Emergency states would depend 
entirely on the security situation.
    In addition to the following programs in northern Nigeria, USAID is 
currently carrying out an assessment of all mission programs and 
activities to improve understanding of the drivers and mitigating 
factors of armed conflict in Nigeria, ensure all USAID programming 
minimizes the risk of exacerbating conflict dynamics, and to the degree 
possible, mitigates drivers of conflict over issues that intersect with 
sectors such as health, education, and agriculture.
Democracy and Governance
    USAID works with state and local governments to improve budget 
preparation and fiscal oversight to ensure adequate service delivery. 
Working with a diverse group of civil society organizations, USAID 
strengthens their ability to advocate and engage with government 
officials to deliver quality social services. USAID also facilitates 
dialogue among government institutions, civil society, political 
parties, faith-based organizations, and other stakeholders to prevent, 
manage, and mitigate the impact of conflict.
Health and HIV/AIDS
    USAID supports increased access to quality family planning and 
reproductive health services, immunization and polio eradication, and 
maternal health services. USAID also supports efforts to decrease the 
number of malaria-related deaths in pregnant women and children each 
year by increasing access to and availability of treatment, 
insecticide-treated bed nets, and retreatment kits. USAID provides 
HIV/AIDS prevention, care and treatment services, as well as services 
to orphans and vulnerable children. Detection and treatment services 
for tuberculosis are also provided.
Education
    USAID provides technical assistance at all levels of government in 
the two northern Nigerian states of Bauchi and Sokoto to ensure that 
the human and financial resources are available and mobilized for the 
education sector. USAID programs support equitable access to quality 
basic education through teacher training, support for girls' learning, 
infrastructure improvement, community involvement, and reading and 
literacy skills development. The programs target public schools, as 
well as Islamiyyah schools, which provide both secular and religious 
education.
Economic Growth
    USAID supports Nigeria's poverty alleviation efforts by improving 
agricultural productivity and expanding jobs in the rural sector. 
USAID's program supports market-based solutions and privatization of 
the energy sector for improved efficiency. Additionally, USAID helps to 
improve access to safe drinking water and reduce morbidity and 
mortality due to water-borne and sanitation-related illnesses.

    Question. What kind of humanitarian and development programming is 
possible to both assist Nigerians and counter Boko Haram's false and 
inflammatory rhetoric that the United States is at war with Islam?

    Answer. In mid-2013, USAID commissioned an assessment of violent 
extremism in Nigeria. The study provides the underlying historical, 
economic, political, and cultural forces that led to the formation of 
Boko Haram. Due to the high level of instability in the most affected 
states, as well as the complexity of the Government of Nigeria 
response, the assessment recommends development assistance 
interventions that indirectly counter violent extremism by enhancing 
economic opportunity for young men in the agricultural sector or 
improving the curriculum and education options offered at semiformal 
Koranic schools. This report was shared with USAID's counterparts in 
the Government of Nigeria formulating a development component to their 
counterterrorism strategy.
    The Office of Transition Initiatives (OTI) has also sent a team to 
assess the situation in northeastern Nigeria as it relates to political 
instability, violence, and lawlessness brought about by the growing 
threat of Boko Haram throughout the region. This assessment will 
provide OTI with a better understanding of the situation and its effect 
on political stability in the region, allow OTI, USAID/Nigeria, and the 
interagency to consider holistic approaches for a coherent and 
comprehensive response to Boko Haram-related issues, and consider the 
feasibility of any programming recommendations given security 
conditions in the target region.

    Question. We have heard that USAID is planning to move OFDA money 
to address needs in the northeast region of Nigeria. Could you please 
provide more details on the types of projects those funds will support?

    Answer. The Office of U.S. Foreign Disaster Assistance (OFDA) is 
working with other donors to determine the humanitarian needs of those 
affected by this crisis. OFDA has already provided $100,000 to support 
trauma counseling and psychosocial assistance in Borno State for the 
abducted girls upon their return as well as for their families. USAID/
OFDA has also committed $750,000 to the International Organization for 
Migration to improve the timely tracking and monitoring of internally 
displaced persons and humanitarian needs in conflict affected areas, 
which will help improve the delivery of critical, appropriate 
humanitarian assistance for affected populations. OFDA expects to 
provide additional humanitarian assistance that will target internally 
displaced people and their host communities. Anticipated humanitarian 
needs include: food and nonfood items, food security, protection/
psychosocial support, livelihoods, shelter, emergency education, 
livelihoods, water, sanitation, and hygiene.
    Within the last several months, OFDA staff has traveled to Gombe, 
Bauchi, and Adamawa states, and has a strong understanding of the 
humanitarian needs in those areas. To date, support to those affected 
by the conflict has been hindered due to the increase in frequency of 
violent attacks in 2014. Currently, humanitarian access is possible, 
albeit precarious due to the volatile nature of the security threat.
                                 ______
                                 

                  Responses of Earl Gast to Questions 
               Submitted by Senator Christopher A. Coons

    Question. Electricity.--Since towns such as Chibok have limited to 
no electricity, what is USAID doing to bring electricity to the North? 
Obviously, Nigeria is one of the six Power Africa focus countries. Are 
there any Power Africa projects in the North, and what more could we do 
to partner with the Nigerian Government to address energy poverty?

    Answer. The Government of Nigeria, and in particular, the Ministry 
of Power, has prioritized expanding electricity access in the North 
through renewable and other approaches. The Nigerian Bulk Electricity 
Trader (NBET) had presented the North Solar Capital Project as one of 
their priority efforts. There are significant challenges with this 
project due to security issues and the ability of private investors and 
financial institutions to effectively carry out due diligence and 
monitor the project.
    The Minister of Power, Mr. Chinedu Nebo, has approached USAID and 
other donors with ideas on how to support off grid and mini-grid 
projects in the North as part of a nationwide effort to bring access 
through off-grid and mini-grid projects to areas that lack access. 
Working with other donors, USAID can potentially look at what 
incentives and risk mitigation measures can be put into place to 
encourage development of projects in the North, but it will be a 
complex and challenging process. USAID and the Power Africa team are 
also providing technical advice to renewable energy project developers 
on how to navigate the various government agencies while developing 
bankable and sound proposals.

    Question. Education.--Given that children are risking their lives 
to go to school because education is so important, can you address the 
administration's decision to cut funding for international basic 
education programs by 33 percent from the current levels?

    Answer. In response to the very robust appropriation for education 
funding in FY 2013, the Nigeria education program received a 24-percent 
increase in funds above their prior year levels. However, because of 
the fragile security environment and difficulties in operating in 
northern Nigeria where education funds are needed most, USAID adjusted 
some activities and temporarily drew down its work pending a change in 
the security environment. Currently, USAID is addressing this by 
pursuing new programming options which specifically focus on increasing 
access to education and improving reading performance through 
institutional strengthening activities. In response to the major 
increase in FY 2013 education funds, and to ensure that the Nigeria 
program has the resources it requires to sustain other critical 
investments, including democracy and governance programs, the Agency 
proposed a lower level of education funding for Nigeria in FY 2014. 
That level increases in the FY 2015 request by 15 percent as the prior 
year education funds on hand are drawn down.
                                 ______
                                 

                 Response of Alice Friend to Question 
               Submitted by Senator Christopher A. Coons

    Question. Professionalization of the Military.--It has been 
mentioned that U.S. support for the professionalization of Nigeria's 
military has been ongoing. What improvements have you seen as a result 
of that support? Since professionalization of the military is so 
important to addressing Boko Haram, why is the FY15 request for Foreign 
Military Financing (FMF) for Nigerian $400,000 less than it was in 
FY14?

    Answer. Promoting professionalization among foreign militaries is a 
long-term, even generational, process. In the case of Nigeria, DOD 
believes that our progress to date manifests itself in two distinct 
ways. The first is the deliberate and ongoing effort to provide 
Nigerian officers, noncommissioned officers, and other military 
personnel examples of what military professionals look like and how 
they conduct themselves. We consider every training event, exercise, 
and day-to-day interaction to be a powerful and important opportunity 
to influence and shape the behavior of Nigeria's military. Second, 
under the Africa Military Education Program (AMEP), DOD is supporting 
Nigerian efforts to overhaul and expand the curricula at two of its 
professional military education institutions. Once complete, this 
initiative will provide Nigeria with its own organic capability to 
promote a more professional officer corps across its armed forces, now 
and into the future. Foreign Military Financing (FMF) levels alone are 
an insufficient metric to gauge DOD's resolve or commitment to helping 
Nigeria professionalize its military. A wide range of other authorities 
and funding sources are brought to bear to address the 
professionalization challenge, including International Military 
Education and Training (IMET) and section 1206 authorities, for 
example.
                                 ______
                                 

                Responses of Alice Friend to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. Extrajudicial Executions and Unlawful Killings by 
Security Forces.--Amnesty International has reported that thousands of 
people suspected of links to Boko Haram have been extrajudicially 
executed or unlawfully killed by security forces, and thousands of 
suspects have died in military or police custody.

  <diamond> How have these abuses fueled the conflict and how do they 
        constrain our ability to help the Nigerian Government respond 
        to this crisis?

    Answer. The reported abuses committed by Nigeria's security forces 
actively feed the very extremist ideology Nigeria is attempting to 
defeat, and thus undermine its counterinsurgency efforts. Moreover, 
such abuses trigger provisions of U.S. domestic law that preclude the 
United States from providing assistance and training to units about 
which there is credible information that a member of the unit has 
committed a gross violation of human rights. As a result, we are 
limited in our ability to help develop the expertise, skills, and 
abilities Nigeria lacks and that are indispensable to its success 
against Boko Haram. A significant percentage of Nigeria's Army, 
including the 7th Division, which has been assigned to northeast 
Nigeria to conduct counter-Boko Haram operations, is excluded from U.S. 
counterterrorism (CT) capacity-building assistance due to its failure 
to be successfully vetted under the DOD ``Leahy law.'' The Nigerian 
Special Boat Service has been a notable exception and has been 
successfully vetted, as there is no credible information that this unit 
has committed gross violations of human rights. Similarly, a newly 
created Nigerian ``Ranger Battalion'' has been successfully vetted, and 
U.S. Africa Command personnel are currently conducting training on 
basic individual and unit military skills.

    Question. Long-Term U.S. Strategy.--What is the long-term U.S. 
strategy for countering Boko Haram in Nigeria? In your opinion, how 
receptive is Nigeria to U.S. technical assistance? How much can we 
really do within the confines of our laws?

    Answer. U.S. Africa Command forces are presently laying the 
groundwork for a regional, partner force-led counterterrorism effort in 
Nigeria, Cameroon, Niger, and Chad that focuses on border security. 
Continued congressional support for various uncodified National Defense 
Authorization Act (NDAA) provisions authorizing DOD support to foreign 
forces is critical to the success of this effort. The U.S. strategy is 
to promote a Nigerian whole-of-government approach that addresses the 
full range of social, economic, governance, security, and other factors 
that contribute to Nigeria's instability and insecurity, particularly 
in the north. We have consistently advised the Government of Nigeria 
that although security capacity-building is an indispensable element of 
its counter-Boko Haram efforts, a force-centric approach that fails to 
address legitimate northern Nigerian grievances will ultimately be 
unsuccessful. The receptivity of Nigeria's military to U.S. assistance 
varies within its Navy and Air Force, with some elements being more 
receptive to train-and-equip efforts than others. The Nigerian 
military's well-documented record of human rights abuses has rendered 
approximately 50 percent of its army ``off limits'' for purposes of 
U.S. train-and-equip efforts. We do engage and will continue to engage 
with those units that have been successfully vetted for human rights 
abuses, including its Special Boat Service and, most recently, the 
143rd Infantry Battalion.
                                 ______
                                 

 Responses of Alice Friend to Questions Submitted by Senator Bob Corker

    Question. Threat Assessment.--The administration has provided 
numerous assessments of Boko Haram's threat as limited to Nigeria and 
an occasional regional outreach as was seen recently in its involvement 
in Mali and ongoing safe haven and sporadic violence in neighboring 
Niger, Chad, and Cameroon. Nonetheless, internally it has become more 
sophisticated and lethal with over 1,500 Nigerians killed since the 
first of the year, hundreds of children and others abducted for ransom 
and trafficking, and the recent threat to Western hotels in Abuja.

  <diamond> Even though Boko Haram's place in the global threat matrix 
        might appear less relevant to the U.S. given its limited reach 
        beyond Nigeria, should the United States take a more strategic 
        approach to limiting its further influence in the face of this 
        mounting capacity to destabilize a large regional power?
  <diamond> Given the Nigerian Government's lack of capacity and 
        political willingness to engage Boko Haram and its own 
        reluctance to effectively cooperate with international 
        partners, what have we learned that would improve the U.S. 
        pursuit of its interests in the region?
  <diamond> What practical limitations exist to U.S. cooperation with 
        Nigeria?
  <diamond> Please provide the waivers and exceptions to legal 
        limitations that are permitted and how they are determined to 
        be utilized.
  <diamond> Have any waivers or exceptions been utilized as it relates 
        to security cooperation with Nigeria? Have any waivers or 
        exceptions been utilized as it relates to security cooperation 
        with any countries in Africa?

    Answer. Although it has only come to the public's notice since the 
tragic kidnapping of school girls from Chibok, DOD has recognized the 
relevance and growing threat of Boko Haram since 2009 when it reemerged 
in a new and more lethal form after going dormant for several years. 
Indeed, in June 2012, then-commander of U.S. Africa Command General 
Carter Ham, described Boko Haram as one of the three most dangerous 
groups operating in Africa.
    Moreover, Boko Haram's transnational nature and linkages have long 
been recognized and known to be growing. As it has grown as a regional 
threat and as Nigeria's limitations in combating the group have become 
clearer, we have adjusted our engagement efforts accordingly. As a 
practical example, DOD and the Department of State have collaborated to 
develop a $40M package using the Global Security Contingency Fund 
(GSCF) authority to train border security forces in Chad, Cameroon, 
Niger, and Nigeria, to check Boko Haram's largely unfettered movement 
back and forth across regional borders. We anticipate this proposal 
being notified to the relevant congressional committees soon, and we 
look forward to collaborating closely with Congress on this important 
initiative.
    Nigeria presents the United States with a range of challenges and 
limitations as a counterterrorism (CT) partner. The baseline capacities 
of its security forces to take on the sophisticated threat Boko Haram 
represents was and remains extremely low. Nigeria has never faced a 
terrorism or insurgency threat as intense as it currently faces, and 
has been slow to adapt new security strategies, tactics, and doctrines 
to support more effective operations.
    Similarly, Nigeria has failed to adopt a whole-of-government 
approach that takes into account the legitimate grievances of its 
population, particularly in the north, thereby failing to pursue an 
indispensable element of any successful counterinsurgency strategy. 
And, perhaps most debilitating, it has conducted brutal and often 
indiscriminate military campaigns that have victimized its own 
citizens; Nigeria's security forces are believed to be responsible for 
the deaths of nearly as many innocent civilians as Boko Haram itself. 
Beyond these factors, a scarcity of political will and rampant 
corruption at all levels and within all elements of government limit 
the United States ability to bring about necessary change.
    DOD has not sought waivers that would permit more robust security 
cooperation with Nigeria and is not convinced that Nigeria is a good 
candidate for such waivers. Even if waivers were granted, it is not 
clear that the engagement opportunities that would be made available 
through the waiver process would produce significant improvement in 
Nigeria's ability to combat Boko Haram. Although Nigeria's record of 
human rights violations does significantly limit the units DOD is able 
to train and equip, the other factors noted above are at least as 
limiting in terms of the U.S. ability to build the necessary CT 
capacities.

    Question. Cooperation with Nigeria.--Direct cooperation on security 
with Nigeria and its neighbors encompasses a variety of programs and 
sources but little clarity on the coherence across or even within U.S. 
agencies. Testimony provided at the hearing intimated at a fairly 
robust cooperation in CT which appears less than apparent from funding 
and program reviews.

  <diamond> Provide information on the broader U.S. security 
        cooperation with Nigeria since 2009 and outline more recent 
        changes and the funding sources that will be utilized, to 
        include training or equipping, mentoring, technical assistance 
        or other program that provides for:

      <all>  Intelligence-sharing;
      <all>  Training to a new unit known as the 143d Ranger Battalion;
      <all>  Training to the 101st CT battalion and the 111th Special 
            Operations Group;
      <all>  C-IED training and civ-mil training;
      <all>  Nigerian Army Special Operations Command (NASOC);
      <all>  And remaining GSCF funding or its replacement.

  <diamond> Incorporate regional training and equipping programming and 
        plans into the above strategic approach to helping Nigeria and 
        the broader region counter militant extremists, including to 
        provide training to the Multi-National Joint Task Force (Chad, 
        Cameroon, Niger, and Nigeria).
  <diamond> What if any additional outcomes emerged from the summit of 
        heads of state that was convened by President Hollande in 
        France on May 17 regarding the region.

    Answer. USSOCOM-SOCAF CT/COIN Lessons Learned Exchange: From 
January 13-18, 2014, U.S. Special Operations Command Africa (SOCAFRICA) 
personnel participated in a counterterrorism/counterinsurgency (CT/
COIN) seminar with Nigerian Army and Navy representatives at Wu Bassey 
Barracks in Abuja. The seminar discussed U.S. and Nigerian successes, 
mistakes, and lessons learned in CT/COIN operations during their 
respective campaigns against terrorism. Each topic was introduced and 
taught by both U.S. and Nigerian instructors, after which participants 
broke into workgroups to discuss the topic and how it could be 
interpreted and put to use in Nigeria's current situation. The CT/COIN 
seminar reflected upon past experiences--both positive and negative--
and emphasized key lessons to be applied in future operations.
    Intelligence Fusion Center: U.S. Africa Command and other DOD 
elements are supporting interagency efforts to develop a Nigerian 
National Intelligence Fusion Center (IFC) in Abuja. The IFC mission 
will be to synchronize efforts of Nigerian intelligence and security 
communities, institutionalize collaborative communications among 
national defense, foreign relations, CT, and law enforcement 
organizations, and improve Nigeria's ability to detect and preempt 
terrorist activities. This is a modest train-and-equip program 
utilizing counternarcotics funding in light of the ``narco'' nexus with 
Nigeria's National Drug and Law Enforcement Agency (NDLEA).
    143d Infantry Battalion (INF BN): On April 23, 2014, U.S. Army 
Africa began a 4-week series of familiarization events with key 143 INF 
BN staff leading to a 5-week Foreign Military Sales (FMS)-funded field 
training period on individual and units tasks. The FMS portion will 
include communication, land navigation, squad and platoon tactics, law 
of armed conflict, and human rights training. Company-level training 
will include urban operations, cordon and search, reconnaissance, and 
MEDEVAC. Specialized staff training includes the military 
decisionmaking process, fires integration, and intelligence-driven 
targeting. The training period will culminate in a battalion training 
exercise to apply gained knowledge.
    Section 1206 human rights training and equipment transfer to the 
101st CT Battalion (CT BN). This $2.25M FY 2009 Section 1206 Light 
Infantry Company redirected from Chad to Nigeria (plus supplemental 
package) was originally an FY 2007 funded section 1206 program for 
Chad, which could not be executed. The case was redirected to Nigeria 
in FY 2009, but the training was postponed because of human rights 
concerns. Nigeria was unable to establish an acceptable national CT 
unit that could successfully be vetted until November 2013, with the 
establishment and vetting of the 101st CT BN. A Defense Institute of 
International Legal Studies (DIILS) team went to Abuja May 6-9, 2014, 
to provide Law of Armed Conflict and human rights training required in 
connection with this equipment transfer. The section 1206-authorized 
equipment (6x 8-ton trucks, 15x Land Cruisers, 2x ambulance trucks, 5x 
trucks, communications equipment, as well as various uniform and field 
equipment items) was transferred to the 101st CT BN on May 9, 2014, 
immediately following completion of the training.
    Defense Institute of International Legal Studies (DIILS) Detainee 
Operations Engagement: (FOUO) DIILS, with additional engagement team 
support from the U.S. Army Office of the Provost Marshall General 
(OPMG), plans to conduct a 3-5-day Legal Aspects of Detention 
Operations Workshop and Exchange at the Infantry Training School 
Headquarters at Jaji Camp in Kaduna, Nigeria in August 2014. The 
intended Nigerian audience is approximately 50 operational-level 
Nigerian Army detention facility commanders and staff personnel.
    Nigerian interest in FMS purchases through the Excess Defense 
Articles (EDA) program. (FOUO) The Nigerian Navy has had great success 
in purchasing needed vessels through the EDA program, most notably USCG 
Cutters Chase (now NNS Thunder) and Gallatin (now NNS OKPABANA, 
transferred to the Nigerian Navy on May 7, 2014, in Charleston, SC). 
Most recently, the Nigerian Army expressed interest in purchasing 
several EDA equipment items, including 5x rotary-wing assets (2x 
gunship, 2x transport, 1x MEDEVAC); up to 50x HMMWVs; and up to 60x 
Mine-Resistant Ambush-Protected (MRAP) vehicles.
    C-IED Training: USAFRICOM has received $3.5M in TSCTP funding, to 
be executed through Naval Forces Africa (NAVAF), to support the 
training of Nigerian Army Explosive Ordnance Disposal (EOD) instructors 
at the Nigerian Army Engineer School in Makurdi, Nigeria. The Navy 
International Programs Office (NIPO) is coordinating the transfer of 
equipment to enable NAVAF to execute the program effectively.
    Civil-Military Operations: USAFRICOM, through the Special 
Operations Command Africa (SOCAFRICA) Civil-Military Support Element 
(CMSE) in Abuja, has been working with the Nigerian Army (NA) 
Department of Civil Military Affairs (DCMA), which serves as a 
coordinating and advising body for the Chief of Army Staff (CoAS) on 
civil-military relations. These efforts include CMSE support to 
Nigerian Army development of Civil Affairs doctrine as well as planned 
training for Nigerian Army Civil-Military planners and advisors 
deployed to each of the seven NA divisions.
    USAFRICOM has received $1M for Nigeria Civil-Military Operations 
(CMO) development through the State Department's Trans-Sahara Counter 
Terrorism Partnership (TSCTP). The engagement plan includes two primary 
streams of training:

    1. Training in CMO for the currently untrained CMO planners at the 
divisions is planned to begin in late June 2014 and continue through 
the end of 2015.
    2. Training in CMO for a pool of existing instructors at several 
Army training institutions, based on CMO doctrine and curriculum. This 
would begin in late 2014 and continue through the end of 2015.

    NASOC: USAFRICOM, through SOCAFRICA, has been providing an advisory 
element to the proposed commander of the Nigerian Army Special 
Operations Command (NASOC). The new Chief of Army Staff has placed 
NASOC development efforts on indefinite hold, citing several factors 
including ongoing offensives against Boko Haram; however, engagement 
efforts with the vetted units are continuing in earnest awaiting 
resolution of where they will now fall in the Nigerian Army structure.
    GSCF: DOD and DOS have collaborated to develop a $40M Global 
Security Contingency Fund (GSCF) assistance program to train border 
security forces in Chad, Cameroon, Niger, and Nigeria, to disrupt Boko 
Haram's largely unfettered movement back and forth across regional 
borders. The Multi-National Joint Task Force (MNJTF) Lake Chad is the 
most viable organization with which to engage and is the focus of U.S. 
efforts. DOD anticipates the proposal being notified to relevant 
congressional committees soon, and we look forward to collaborating 
closely for approval of this important initiative.
    Summit Outcomes: Discussions at the May 17 summit were in keeping 
with the themes of a regional approach utilizing the MNJTF Lake Chad.

--Participants agreed that over the medium term a coordinated program 
    for economic development in the region is required. The Lake Chad 
    Basin Commission (LCBC) might play a role in these efforts.
--The Multinational Joint Task Force, a part of the LCBC, was also 
    suggested as a vehicle for enhanced regional security cooperation 
    and assistance. This will be pursued; however, Cameroon is not 
    currently a member of the MNJTF.

    Question. U.S. Cooperation with Foreign Governments.--The 
continuing challenge for the United States is that our efforts will 
have to be creative and coordinated, not only with a partner in Nigeria 
who is reluctant to do so, but with regional neighbors who have much to 
lose if this violent militancy spreads, as reports indicate it can.

  <diamond> What is the state of U.S. cooperation with neighbors in 
        Niger, Chad and Cameroon and set it against the domestic 
        capacity of these three countries to address the border 
        security threat as well as the respective governments efforts 
        to address internal tensions that may mirror Nigeria's current 
        situation?
  <diamond> How have we utilized the Trans-Sahara Counter-Terrorism 
        Partnership and other Countering Violent Extremism and other CT 
        programs in the region to address the growing Boko Haram threat 
        and how are they to be augmented if at all? What office or 
        vehicle for coordination exists to harmonize such regionally 
        significant programs as CT-CVE?

    Answer. The United States has experienced good counterterrorism 
(CT) cooperation with Chad and Niger, although their focus has been on 
CT threats elsewhere in their countries where the AQIM threat has been, 
until recently, more visible and more direct. In both cases, Boko Haram 
has been viewed as ``Nigeria's problem,'' presenting only a limited and 
localized threat to their own security. With the group's expansion this 
perception has changed and, along with it, we are seeing a willingness 
to reallocate security resources away from other missions and toward 
Boko Haram's operating areas along their respective common borders with 
Nigeria. In short, both countries are capable, and their will to 
counter the Boko Haram threat is growing, but both also lack adequate 
resources. With respect to Cameroon, DOD's cooperation with Cameroon is 
also robust, but regional collaboration is hampered by strained 
relations with Nigeria. Like Chad and Niger, Cameroon was slow to 
acknowledge the threat of Boko Haram, but fully recognizes it now and 
is dedicating national resources to control its border with Nigeria 
more effectively and to conduct operations against the group. Also, 
like Chad and Niger, Cameroon has capable security forces that are 
nevertheless resource-constrained and overextended. To capitalize on 
this increasing awareness of Boko Haram as a regional threat, the 
United States has developed a $40M proposal under the Global Security 
Contingency Fund authority designed to build all four countries' 
respective border security capacity. Along with our interagency 
partners, DOD will continue to seek opportunities to promote and 
materially support regional collaboration, cooperation, and 
deconfliction of efforts against Boko Haram. The Trans-Sahara 
Counterterrorism Partnership (TSCTP) is a State Department-led 
mechanism by which the USG coordinates support to regional efforts to 
contain, degrade, and ultimately defeat AQAA, including Boko Haram, in 
the region. Although Nigeria only recently became a TSCTP partner, DOD 
has received $1M in TSCTP funding to help establish a civil-military 
operations (CMO) capacity within the Nigerian military, including 
establishing organic Nigerian capability to train and sustain CMO 
skills into the future.
                                 ______
                                 

  Response of Alice Friend to Question Submitted by Senator Jeff Flake

    Question. U.S. Cooperation with Foreign Governments.--I asked a 
question regarding the ability of the United States to cooperate with 
the Nigerian Government in the security sector and though a response 
was given that there are restrictions on U.S. assistance in law, 
including the Leahy amendment restrictions on the provision of 
assistance, training, and equipment, you did not discuss the exceptions 
and waivers associated with these restrictions.

  <diamond> Please describe the legal restrictions, as well as any 
        waivers or exceptions allowed by the so-called ``Leahy 
        amendment.'' Have any waivers or restrictions been utilized 
        under these provisions in Nigeria?

    Answer. The DOD Leahy law provides that DOD appropriated funds may 
not be used for training, equipment, or other assistance for the 
members of a foreign security force if there is credible information on 
a gross violation of human rights. The Leahy law also includes two 
exceptions and a waiver provision to the general prohibition. The 
exceptions apply if the Secretary of Defense, after consultation with 
the Secretary of State, determines that the government of the proposed 
recipient country has taken all necessary corrective steps; or if the 
equipment or other assistance is necessary to assist in disaster relief 
operations or other humanitarian or national security emergencies. DOD 
does not believe that the Nigerian Government, to date, has met the 
requirements to apply the first exception in that it has not taken 
meaningful corrective steps to address the problem of gross human 
rights violations or to identify and discipline those responsible. The 
waiver applies if the Secretary of Defense, after consultation with the 
Secretary of State, determines that such waiver is required by 
extraordinary circumstances. Although the current circumstances in 
Nigeria are certainly extraordinary, we do not believe they are of such 
a nature as to warrant use of an exception to, or waiver of, U.S. human 
rights requirements. Further, even if Leahy restrictions were waived or 
excepted from, DOD believes that other factors, including corruption 
and a pervasive lack of political will, would still inhibit building 
the capacities that Nigeria requires.
    DOD has not, to date, relied on an exception or the waiver 
provision to the general prohibition. To pursue such an exception or 
waiver, a Combatant Command or Office of the Secretary of Defense 
(Policy) office would prepare and coordinate a proposal for Secretary 
of Defense consideration and decision.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
